<html>
<title> - THE YEAR 2000 PROBLEM, INDIANAPOLIS: A LOCAL RESPONSE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




         THE YEAR 2000 PROBLEM, INDIANAPOLIS: A LOCAL RESPONSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 1999

                               __________

                           Serial No. 106-15

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
57-495                     WASHINGTON : 1999



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 19, 1999...................................     1
Statement of:
    Cottey, Jack L., sheriff, Marion County, IN; John Spahr, 
      deputy fire chief, Lawrence Township Fire Department; J. 
      Gregory Garrison, CBS legal analyst; and Kate Ekins, 
      manager of public affairs, St. Vincent Hospital and Health 
      Services...................................................   137
    Redick, Dennis R., mayor, Noblesville, IN; Charles G. 
      Henderson, mayor, Greenwood, IN; and Carlton Curry, 
      councilman, Indianapolis, IN...............................   116
    Willemssen, Joel, Director, Civil Agencies Information 
      Systems, General Accounting Office; Peter Beering, deputy 
      general counsel, Indianapolis Water Co.; Robert Miller, 
      Indianapolis Water Co.; John Edwards, project manager, year 
      2000 compliance, Citizens Gas and Coke Utility; Joseph 
      Gustin, vice president, information services, Indianapolis 
      Power and Light; Frank Mitchell, media relations manager, 
      year 2000, Ameritech; and Don Sloan, legislative director, 
      AT&T.......................................................    15
Letters, statements, etc., submitted for the record by:
    Beering, Peter, deputy general counsel, Indianapolis Water 
      Co.; Robert Miller, Indianapolis Water Co.; John Edwards, 
      project manager, year 2000 compliance, Citizens Gas and 
      Coke Utility; Joseph Gustin, vice president, information 
      services, Indianapolis Power and Light; Frank Mitchell, 
      media relations manager, year 2000, Ameritech; and Don 
      Sloan, legislative director, AT&T, presentation of.........    66
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     3
    Cottey, Jack L., sheriff, Marion County, IN, prepared 
      statement of...............................................   139
    Curry, Carlton, councilman, Indianapolis, IN, prepared 
      statement of...............................................   130
    Ekins, Kate, manager of public affairs, St. Vincent Hospital 
      and Health Services, prepared statement of.................   159
    Garrison, J. Gregory, CBS legal analyst, prepared statement 
      of.........................................................   152
    Henderson, Charles G., mayor, Greenwood, IN, prepared 
      statement of...............................................   125
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     7
    Mitchell, Frank, media relations manager, year 2000, 
      Ameritech, prepared statement of...........................    49
    Redick, Dennis R., mayor, Noblesville, IN, prepared statement 
      of.........................................................   118
    Spahr, John, deputy fire chief, Lawrence Township Fire 
      Department, prepared statement of..........................   144
    Willemssen, Joel, Director, Civil Agencies Information 
      Systems, General Accounting Office, prepared statement of..    18

 
         THE YEAR 2000 PROBLEM, INDIANAPOLIS: A LOCAL RESPONSE

                              ----------                              


                         MONDAY, APRIL 19, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                  Indianapolis, IN.
    The committee met, pursuant to notice, at 9 a.m., at 
Indiana University-Purdue University at Indianapolis University 
Place, room 132, 850 W. Michigan Street, Indianapolis, IN, Hon. 
Dan Burton (chairman of the committee) presiding.
    Present: Representatives Burton, Horn, and McIntosh.
    Staff present: Bill O'Neill, director of procurement 
policy; Lisa Smith-Arafune, deputy chief clerk; Matt Ryan, 
senior policy director, Subcommittee on Government Management, 
Information, and Technology; Michael Yang, minority counsel; 
Michael A. Delph, district director; Jim Atterholt, senior 
policy advisor; and Tim Davis, special assistant.
    Mr. Burton. Quorum being present, we will start this 
hearing.
    Normally, my colleague Steve Horn would be chairing this 
hearing, but in deference to the chairman of the full 
committee, he has allowed me to start off this morning. Steve 
is the man who is the real expert on the Y2K problem. He will 
be carrying most of the heavy work up here for us. Right?
    Mr. Horn. Anything you say, Mr. Chairman. Subcommittee 
chairmen learn to keep on the good side of the full committee 
chairman.
    Mr. Burton. Right. Right.
    Well, I want to welcome everyone this morning to discuss 
one of the most pressing issues that our Nation faces as the 
millennium approaches. The promise of a new century also brings 
the possibility of chaos, due to the year 2000 computer 
problem. As you know, the Y2K bug is the software lines of 
computer code that, if not fixed when the millennium comes, has 
the potential to wreak havoc worldwide.
    Virtually every governmental and private-sector 
organization is affected by this most pressing problem. I am 
quite pleased to have my good friend from California, Steve 
Horn, who chairs the Government Management, Information, and 
Technology Subcommittee with me at today's hearing. Chairman 
Horn is recognized as the leading expert in the Congress on 
Y2K, and is cochairman of the House task force on the year 2000 
problem. He has been holding hearings on this issue for over 3 
years, and has been instrumental in raising public awareness of 
the potential problems we face if we don't take action and take 
it quickly.
    A significant milestone in the Federal Government's effort 
to update its computer systems for the year 2000 has just been 
passed. On March 21st, the President's deadline for all 
mission-critical computers to be year-2000 compliant, 92 
percent of the government's departments and agencies reported 
that their 6,123 mission-critical computer systems are ready 
for the new millennium. Only 3 short years ago, several 
agencies were unaware of the programming glitch that could shut 
down or corrupt their computer systems on January 1, 2000.
    The Federal Government has made tremendous progress in its 
effort to be Y2K compliant; however, 8 percent of the 
government's mission-critical systems failed to meet the 
President's March 31st deadline. These systems found within 11 
Federal agencies are vital to the health and well-being of 
millions of Americans. They must be fixed before we can focus 
on end-to-end testing.
    As there are numerous interactions between Federal and non-
Federal computer systems, the purpose of this hearing is to 
assess the level of preparedness of non-Federal entities. Today 
we will examine the local response to the Y2K problem. We will 
hear testimony from local government officials, emergency 
response agencies, and utility concerns on how they are working 
to resolve their Y2K problems.
    The public depends on the uninterrupted flow of service 
from their utility providers. They expect the phone to ring, 
and the water and electricity to flow. When there is a problem, 
they expect their police and fire departments to respond and to 
be able to obtain health care services. The public needs to be 
assured that these services will continue. If this is not the 
case, they need to know what is being done to correct this now, 
and what contingencies are planned in case of interrupted 
service.
    This forum is of perfect opportunity to see how America's 
heartland has prepared to meet the challenge to become Y2K 
compliant. The citizens of Indianapolis have a right to expect 
that their local government and service providers are doing all 
that they can to make sure that they enter the millennium Y2K 
compliant.
    We have an excellent panel of witnesses, and I look forward 
to hearing their testimony on the challenges that they all 
face, solutions they have implemented and the lessons they have 
learned in working on this vital issue. I would like to say the 
reason we are having this here in Indianapolis is because we 
wanted to find out what major cities, like Indianapolis, across 
the country are doing to be Y2K compliant.
    I thought since Indianapolis is the 11th or 12th largest 
metropolitan area in the country, and since I am chairman of 
the committee, that this would be the best place to do this. 
But my colleague Steve Horn has been all over the country 
having these hearings. And with that, let me yield to him for 
some opening remarks.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.001
    
    [GRAPHIC] [TIFF OMITTED] T7495.002
    
    Mr. Horn. Thank you very much, Mr. Chairman. Last fall we 
were here in Indianapolis, and the chairman had to be in 
Washington dealing with the Attorney General on one of our 
major national scandals, and how we do something about it. The 
year 2000 ``millennium bug'' has turned into a metaphor for the 
potential computer problems that are associated with January 1, 
2000, around the world. And they go back to the 1960's.
    Some of you will remember rooms such as this with mainframe 
computers from one end to the other and very little capacity. 
Your personal computer has more capacity than most of those 
mainframes. So when you get to the year 2000, what happens is 
that to get more space, they said, why do we have to put 19 in 
when we put in 1967? Let's just put 67. And that became the 
standard throughout the industry.
    The result is, when you get to January 1, 2000, you end up 
with a zero-zero, not a 67 or a 1967. And so computers all over 
the world have to be adjusted that way. And even when you have 
yours set up and adapted, the facts are that you might be 
polluted again by computers that are not adapted to a situation 
where they will know it is the year 2000, because it will think 
it is the year 1900. And computers are only as good as we 
program them. So this is a massive reprogramming situation.
    We started on this in April 1996 when the Federal 
Government was doing absolutely nothing about it. The Social 
Security Administration had done it on its own from 1989, and 
it took them 10 years to be 100 percent compliant. They weren't 
compliant until this year. But you can tell all your friends 
the Social Security checks will be around.
    And the same will be, I think, with Medicare; they are 
coming along.
    But we do have some real problems in the Federal 
Government.
    The Federal Government at this point has spent $8 billion 
to fix its computer system. The original estimate of the 
Gartner Group was that we would be spending $30 billion. My 
guess was we would spend $10 billion, and I think my guess--and 
I have absolutely, complete ignorance on this subject, and I 
don't claim to be an expert, but my instincts are pretty right 
on this one--they might well go to $10 billion. And it is 
considered a $600 billion worldwide problem by the Gartner 
Group, which is one of the leading consultant services.
    So what we wanted to do, as the chairman said, is start 
seeing what the major cities have done at this point, and so 
that is why we are in Indianapolis. We have also visited 
Dallas, New York, and New Orleans. The bottom line is, any one 
of the entities that make up the modern major city, be it 
utilities, the government, whatever, that affects our lives, 
can have a very difficult impact on citizens. What we want to 
avoid is some of the panic scare that some people have already 
done, and you will see a lot more of it. That is why we think 
we ought to go out and see what is going on.
    The danger comes when somebody is trying to sell a book, 
which a lot of them have. I have a closet full of them from all 
over America, where people have tried to scare the living 
daylights out of people.
    And that doesn't mean you can't be prudent. You can be 
prudent, and it isn't a panic to say it. Make sure you've got 
your records in case some bank didn't adapt, but the banks have 
done very well. Mr. Greenspan, I discussed that with him 2\1/2\ 
years ago, and Governor Kelly of the Board of Governors has 
been in charge of that effort, and they have done a fine job. 
We have checked them with the banks, the clearinghouse, the 
stock markets; all of those were working on this 3 years ago. 
So I think we are safe on that bit.
    But there are some places in the United States where they 
don't quite get the message. This is not one of them, because 
we had a very good hearing here last fall.
    But with the computers to work, we need power, for example. 
That is why we are going to talk to various entities in the 
electrical power, whether it be hydro or wind or solar, or 
whatever it is, because if that power goes down, the business, 
say, of the strike at Flint, MI, a few months ago, that will be 
a drop in the bucket.
    It would put the whole Midwest out. And after a few days, 
if there wasn't some way, it would come back on, you would be 
letting go thousands of workers. That is what we want to avoid. 
So we think rational business will do it.
    I think we have a lot of other things we could say on this, 
Mr. Chairman, but I would just like my statement to be put in 
the record as if read.
    Mr. Burton. Without objection, so ordered.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.003
    
    [GRAPHIC] [TIFF OMITTED] T7495.004
    
    [GRAPHIC] [TIFF OMITTED] T7495.005
    
    [GRAPHIC] [TIFF OMITTED] T7495.006
    
    [GRAPHIC] [TIFF OMITTED] T7495.007
    
    [GRAPHIC] [TIFF OMITTED] T7495.008
    
    [GRAPHIC] [TIFF OMITTED] T7495.009
    
    Mr. Burton. I would like to welcome our colleague, Mr. 
McIntosh. He is chairman of the National Economic Growth, 
Natural Resources, and Regulatory Affairs Subcommittee of the 
Government Reform Committee.
    David, do you have some comments you would like to make?
    Mr. McIntosh. Just very briefly.
    Chairman Burton, let me say thank you for holding this 
hearing here. In particular, I welcome our colleague Mr. Horn, 
who has frankly done more than anybody that I know of in the 
government to make sure that we are focusing on this issue; and 
he did it far before the rest us even really understood the 
problem and the potential problem. And so we owe him a debt of 
gratitude for leading that effort in his subcommittee.
    I want to thank you for that, Steve.
    Mr. Horn. Well, I thank the gentleman. He is a fellow 
subcommittee chairman, and he has done an outstanding job. And 
you can see how we get in Congress when we say nice words about 
each other.
    Mr. McIntosh. That is right.
    Mr. Horn. Somebody has got to say nice words to us.
    Mr. Burton. Mutual admiration.
    Mr. McIntosh. Exactly. But so everybody puts it in context, 
Steve really has spent the last several years focusing on an 
issue that many in Congress said, that is down sometime in the 
future, we don't have to worry about it. And he has. We have 
all been helped as a result of it.
    I want to thank the panelists today for coming. I have 
talked to many of them about it; just asking, Are we ready? You 
will be favorably impressed, Steve, that the business community 
here in Indianapolis has gotten ahead of the curve and has done 
a good job. But with that Chairman Burton, thank you very much 
for having this hearing here today.
    Mr. Burton. Thank you. Before I go to the first panel, let 
me just say that one of the main purposes of this hearing is to 
try to allay some of the fears that people have. My brother and 
a lot of other people have been getting information that leads 
them to believe that they should buy generators and have them 
close to their home, and have gas supplies and everything else, 
because January 1st there may be a glitch that closes down the 
electricity. Some people are even buying guns and everything 
else to protect themselves against their neighbors.
    So one of the things that I think is important is that the 
public be well informed about the situation so that they don't 
get hyper. I think you touched on that, Steve. And for that 
reason, I think what we are talking about today hopefully will 
be discussed all over this country, so people will not go off 
the deep end and start doing crazy things, and wasting a lot of 
money that they don't have to.
    Our first panel--and I want to say, I am glad we have one 
of our major supporters in getting this information out to the 
people, Greg Garrison, who is on television and radio quite a 
bit; has his own radio show here. He has been telling the 
people about the Y2K problem. I appreciate you being here, 
Greg, and testifying as well so that you can get the message 
out to the hinterlands about what the real situation is.
    Mr. Garrison. My pleasure.
    Mr. Burton. Our first panel is Mr. Joel Willemssen. We 
normally swear you folks in, but I am not going to have you all 
stand up at one time and swear you in, because I know you are 
going to tell the truth, and I don't want you to turn the table 
over.
    So we have Mr. Joel Willemssen. He is the Director of Civil 
Agencies Information Systems at the General Accounting Office. 
Are you out of Washington?
    Mr. Willemssen. Yes, sir, Mr. Chairman.
    Mr. Burton. Welcome to Indiana. And also on our panel is 
Mr. Peter Beering, Deputy General Counsel at the Indianapolis 
Water Co.
    Are you related to Mr. Beering up at Purdue?
    Mr. Beering. Yes, sir, I am.
    Mr. Burton. Your father?
    Mr. Beering. He is.
    Mr. Burton. Well, tell your father we said hello.
    Mr. Beering. I will do that.
    Mr. Burton. Mr. Robert Miller of the Indianapolis Water 
Co.; Mr. John Edwards, project manager for the year 2000 
compliance at Citizens Gas and Coke Utility; Mr. Joe Gustin, 
vice president, information services at Indianapolis Power and 
Light. We had dinner together last night.
    Did you get a good night's sleep?
    Mr. Gustin. Yes, sir.
    Mr. Burton. Frank Mitchell, year 2000's media relations 
manager at Ameritech; and, Mr. Don Sloan, legislative director 
at AT&T.
    And I think that about covers it.
    Would you like to start off with a brief overview?
    Mr. Willemssen. Yes, I will.
    Mr. Burton. Mr. Willemssen.

    STATEMENTS OF JOEL WILLEMSSEN, DIRECTOR, CIVIL AGENCIES 
INFORMATION SYSTEMS, GENERAL ACCOUNTING OFFICE; PETER BEERING, 
DEPUTY GENERAL COUNSEL, INDIANAPOLIS WATER CO.; ROBERT MILLER, 
  INDIANAPOLIS WATER CO.; JOHN EDWARDS, PROJECT MANAGER, YEAR 
2000 COMPLIANCE, CITIZENS GAS AND COKE UTILITY; JOSEPH GUSTIN, 
 VICE PRESIDENT, INFORMATION SERVICES, INDIANAPOLIS POWER AND 
  LIGHT; FRANK MITCHELL, MEDIA RELATIONS MANAGER, YEAR 2000, 
      AMERITECH; AND DON SLOAN, LEGISLATIVE DIRECTOR, AT&T

    Mr. Willemssen. Thank you, Mr. Chairman, Subcommittee 
Chairmen Horn and McIntosh. Thank you for inviting the GAO to 
testify today. And, as requested, I will give a brief overview 
on where the Federal Government stands, and then briefly touch 
on, as requested, some of the lessons learned to date from the 
leading organizations in dealing with Y2K.
    Mr. Burton. Let me interrupt.
    Mr. Willemssen. Certainly.
    Mr. Burton. I hope that the panelists will try to limit 
their remarks. We have about 3 or 3\1/2\ hours here, and if we 
could limit our remarks to around 5 minutes, that would be very 
helpful, and then we will get the questions and answers later.
    Mr. Willemssen. Yes. Mr. Chairman, as you noted, the 
Federal Government has made notable progress in addressing Y2K, 
now standing at a reported 92 percent of mission-critical 
systems being compliant.
    A lot of the reason for this improvement has been 
congressional oversight. Chairman Horn was on this issue 3 
years ago, before it was a nationally known issue. He has been 
out there spurring top agency leadership to move forward on Y2K 
by holding agencies accountable through hearings, through his 
report cards, and through other mechanisms. So I think you are 
right by giving Chairman Horn and other committees within the 
House and Senate credit for much of the improvement that has 
been made within the Federal Government.
    Nevertheless, despite that improvement, there remains a lot 
of work to be done. In particular, there are some critical 
agencies and systems within those critical agencies that are 
not yet compliant. Notable among those are the Federal Aviation 
Administration, and the Health Care Financing Administration, 
which administers Medicare. Many of those systems are not yet 
compliant. Beyond that individual system compliance, we then 
have to think about end-to-end testing of multiple systems 
supporting a key business process. So even when those 
individual systems have been deemed compliant, there is still a 
lot of hard work left to be done.
    The bottom line on the Federal Government is that while a 
lot of progress has been made, by no stretch of the imagination 
are we done with the work that needs to be done.
    You also asked me to briefly comment on some of the lessons 
learned to date from leading organizations. We have put 
together about 100 reports and testimonies on Y2K covering a 
wide range of Federal agencies and also State and local 
governments, and other key economic sectors. Based on that 
work, and based on what we have seen from some of the leading 
organizations, I thought I would offer in summary form some of 
the key elements of key ``best practices'' we have seen of the 
leading organizations in addressing Y2K.
    One, it goes without saying, top agency organization 
leadership needs to be intimately involved with Y2K. Y2K needs 
to be viewed as a business problem, not a systems or technical 
problem. To the extent that that is done, the organizations we 
have looked at are way ahead of the game in understanding that 
this is not something that can be shoved off just on the 
information technology part of the organization, but is truly 
part of the business and is critical to making sure that those 
business processes will work as necessary.
    That brings us to the second critical point that we have 
seen. Increasingly, we have needed to focus on the business 
functions, as opposed to information technology systems. And 
that is a bit of a learning curve, especially in the Federal 
Government. And now the Federal Government is moving more to a 
program orientation rather than a system orientation. For 
example, we don't think that the average citizen really cares 
if a Medicare system works or not. What they care about is that 
the benefit comes through. And that is where a lot of the focus 
needs to move.
    Third, another critical element is focusing on your 
partners and your data exchanges. To just focus on your 
individual business and your individual systems is not good 
enough. In fact, you could have the best program of any 
organization, but to the extent you haven't dealt with those 
critical data exchanges, you run the risk that bad data could 
come in, infiltrate your systems, and all of that good work 
that you have done on your systems could go for naught.
    Fourth, one of the most important areas within Y2K, 
testing. The leading organizations are spending between 50 to 
70 percent of the total amount of time on Y2K in testing both 
on individual systems and from an end-to-end perspective. And 
if organizations today, to the extent that they are not deeply 
into the testing and through with much of the testing for their 
individual systems, they are behind the eight ball, and they do 
need to get moving quickly.
    Fifth, another critical component is independent 
verification and validation. This is essential as another set 
of eyes to give organizations exactly what the ground truth is 
on what is going on.
    And then to sum up, another critical element: business 
continuity and contingency planning. No matter how good an 
organization's efforts are, you have got to have that backup 
plan in place, so that we can assure the citizens that benefits 
and services will continue to be provided, even if there are 
system failures.
    That concludes the summary of my statement, and after the 
panel is done, I would be pleased to address any questions that 
you may have.
    Mr. Burton. Thank you. I presume, Steve, that they have 
given you something in writing on all this?
    Mr. Horn. Yes, if I might say, Mr. Chairman, some people in 
the room might not be familiar with the General Accounting 
Office. It is part of the legislative branch of the United 
States, not the executive branch. It reports to the Controller 
General of the United States. We have a new one that just took 
office. It is a 15-year term to isolate them from any political 
pressures by any party. And they do a superb job.
    We have several thousand real professionals over there that 
deal not simply with fiscal matters, but increasingly, as a 
result of the congressional acts of 1946--but had never been 
permitted for many years--is the program reviews, and we are 
looking at all agencies in the Federal Government to have a 
business plan, have strategic goals, to get a balance sheet. 
That is the first time that has happened in 210 years of the 
American Congress and the American executive branch; so they 
are our eyes and ears.
    Mr. Burton. Thank you, Steve. I would like to have a copy 
of your report turned in as well.
    [The prepared statement of Mr. Willemssen follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.010
    
    [GRAPHIC] [TIFF OMITTED] T7495.011
    
    [GRAPHIC] [TIFF OMITTED] T7495.012
    
    [GRAPHIC] [TIFF OMITTED] T7495.013
    
    [GRAPHIC] [TIFF OMITTED] T7495.014
    
    [GRAPHIC] [TIFF OMITTED] T7495.015
    
    [GRAPHIC] [TIFF OMITTED] T7495.016
    
    [GRAPHIC] [TIFF OMITTED] T7495.017
    
    [GRAPHIC] [TIFF OMITTED] T7495.018
    
    [GRAPHIC] [TIFF OMITTED] T7495.019
    
    [GRAPHIC] [TIFF OMITTED] T7495.020
    
    [GRAPHIC] [TIFF OMITTED] T7495.021
    
    [GRAPHIC] [TIFF OMITTED] T7495.022
    
    [GRAPHIC] [TIFF OMITTED] T7495.023
    
    [GRAPHIC] [TIFF OMITTED] T7495.024
    
    [GRAPHIC] [TIFF OMITTED] T7495.025
    
    [GRAPHIC] [TIFF OMITTED] T7495.026
    
    [GRAPHIC] [TIFF OMITTED] T7495.027
    
    [GRAPHIC] [TIFF OMITTED] T7495.028
    
    [GRAPHIC] [TIFF OMITTED] T7495.029
    
    [GRAPHIC] [TIFF OMITTED] T7495.030
    
    [GRAPHIC] [TIFF OMITTED] T7495.031
    
    [GRAPHIC] [TIFF OMITTED] T7495.032
    
    [GRAPHIC] [TIFF OMITTED] T7495.033
    
    [GRAPHIC] [TIFF OMITTED] T7495.034
    
    [GRAPHIC] [TIFF OMITTED] T7495.035
    
    [GRAPHIC] [TIFF OMITTED] T7495.036
    
    [GRAPHIC] [TIFF OMITTED] T7495.037
    
    Mr. Burton. I understand the panel has a presentation that 
you would like to make. Who is the spokesman for the panel?
    Mr. Beering. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Beering.
    Mr. Beering. My name is Peter Beering from the Indianapolis 
Water Co. In the interest of the committee's time, what we have 
done is, the working group for the year 2000 problem with 
Indianapolis utilities have a coordinated presentation by each 
utility that lives within one Power Point Presentation. I 
believe Ms. Arafune is going to operate the lights for us.
    What we will do is, after some brief introductory remarks, 
each of the organizations represented on the panel, 
alphabetically, will comment on their specific company 
preparations, and then we will be happy to field questions you 
or the committee may have.
    As you are particularly aware from the fact that you have 
represented much of the Indianapolis area for many years, the 
Indianapolis utilities have a long and distinguished history of 
cooperative relationships. These cooperative relationships 
speed our responses to all of the problems that our customers 
face, whether those are weather-related or computer-related, or 
related to some other problem. We and my colleagues, who are 
represented here are a portion of the year 2000 readiness 
efforts of these utilities, have been meeting for the past 
number of months, and this consortium includes representatives 
from engineering, operations and administrative departments to 
each of the representative utilities.
    One utility who is not a direct participant in this panel 
today, but who has been participating with us, is the White 
River Environmental Partnership. They deliver wastewater 
treatment and sewer services for much of this community, and 
some of the surrounding area; they, too, have been 
participating.
    Recently, we have also expanded participation in this 
committee to include significant representation from the 
Department of Public Safety, both police and fire, as well as 
emergency management, and also our colleagues from public 
work's side of the municipal government, so that our response 
to whatever problem may be, if any at all, is completely 
coordinated across the board.
    Each one of the involved organizations has engaged in a 
series of compliance testing activities. Each of the involved 
utilities has evaluated and ranked problem systems. Once 
problem systems have been identified, they are being tested and 
assessed for compliance. And I am pleased to report that, based 
on our meetings, that remediation is well under way on the 
affected systems. Once the remediation efforts have been 
completed, each of the systems are retested. And an important 
piece of our testing methodology includes testing for critical 
dates that may occur prior to the year 2000 event itself.
    Although we, as a set of utilities, do not believe that the 
year 2000 will present any particular service interruptions, we 
have also engaged in a very elaborate series of contingency 
planning activities. These contingency planning activities have 
included, most importantly, the identification of our key 
facilities and resources, and those locations that we deem to 
be critical to the uninterrupted service for our customers. 
These contingency planning efforts, as I mentioned earlier, are 
being closely coordinated with public safety and public works 
officials and emergency communications have been planned both 
within the utility environment themselves and also with the 
broader public works and public safety community. Several of 
these communications systems were tested recently, as I believe 
Mr. Gustin will mention during his more particular testimony.
    The mission-critical functions and facilities and supplies 
have been identified and procured, and that includes fuel 
sources, as well as key personnel, from each of the utilities. 
We have also worked out a number of staffing issues related to 
how we get personnel to our key facilities in the event that 
there was a problem. One of our particular concerns is that, as 
you are aware, this past year we had a significant snow event 
during the New Year's celebration, and we are working on 
contingency plans to address even that kind of problem.
    Beyond contingency planning, communications is a very 
important part of our activities. We have all appeared in front 
of the Indiana Utility Regulatory Commission. We are briefing 
or staff and our key employees, and we are providing 
information to those who need it. We are also participating, 
all of the utilities represented here, in regional and national 
efforts to assist other utilities in their planning efforts.
    Now I believe that Mr. Mitchell from Ameritech will 
proceed.
    Mr. Burton. Mr. Mitchell.
    Mr. Mitchell. Chairman Burton, and members of the 
committee, good morning, and thank you for having us.
    My name is Frank Mitchell; I am media relations manager for 
Ameritech for the year 2000. In that capacity, I have conducted 
hundreds of interviews with various media on the subject of Y2K 
and Ameritech's preparedness.
    Ameritech has a strong year 2000 initiative in place. Since 
1996, Ameritech has been pursing one of our most aggressive 
undertakings ever, to assure a smooth transition to the 21st 
century for both Ameritech and its customers. We have 
established a corporate-wide initiative to address and resolve 
year 2000 issues, and more than 400 professionals from 31 
different disciplines are working on a team that is headed by 
the year 2000 project leader. It involves every business unit 
in our corporation. We expect to spend approximately $250 
million to address the year 2000 issue.
    At Ameritech the year 2000 project leader, Fred Cowitz, 
reports directly to the executive vice president, who in turn 
reports directly to the chairman. The project leader not only 
updates his supervisor on a regular basis, but advises our 
management committee on a monthly basis of our progress. He 
also meets with the board of directors every 6 months.
    The mission-critical systems remediation work at Ameritech 
is 99 plus percent complete. From our standpoint, we have 
reviewed more than 2,500 products or services; remediated an IS 
portfolio of approximately 1,000 applications; upgraded more 
than 1,400 central office switches that handle phone calls; 
analyzed and prepared tens of thousands of desktops and office 
components, such as telephones, computers and fax machines. And 
we have prepared access and security systems, heating and 
cooling plants, alarms and elevators, in 12,000 buildings and 
equipment vaults. Any remaining remediation activity, testing 
and deployment has been scheduled and is expected to be 
completed well in advance of the century date change.
    I will talk about our testing strategies in just a few 
moments. But our contingency recovery and continuity planning 
process is well under way. Contingency and recovery plans are 
already part of our ongoing business on a day-to-day basis. 
Ameritech has launched a team to develop year 2000 business 
continuity plans. Things we used to do manually, we may have to 
learn to do again, in the unlikely event of sustained 
disruption to our systems, infrastructure or key services 
provided by our vendors.
    Ameritech is encouraging cities and businesses to review 
their own communications equipment to verify they are Y2K ready 
and to test them. Ameritech's year 2000 readiness plan 
generally do not cover customer premises equipment; equipment 
owned by our customers. Customers will need to contact the 
supplier or manufacturer of such equipment to determine its 
year 2000 readiness, and to take all necessary efforts to 
assure the readiness of their own telecommunications 
infrastructure. However, in support of our customer efforts, 
Ameritech is working with its suppliers to determine the year 
2000 status of customer-provided equipment and make that 
information available to our customers.
    Ameritech is involved in several Y2K partnerships. 
Ameritech is a member of the Telco Year 2000 Forum, a 
nationwide group of major telecommunications companies, and a 
member of the Alliance for Telecommunications Industry 
Solutions. Both of these organizations have conducted extensive 
interoperability testing, and the results support our 
contention that the Nation's telecommunications system will 
operate without disruption during and after the year 2000 date 
change.
    Ameritech is also a member of the FCC-sponsored Network 
Reliability and Interoperability Council, an ongoing body, and 
an Ameritech representative is also chairing a committee 
sponsored by the International Telecommunications Union that is 
developing a first alert communication plan.
    Some additional information, Ameritech's Internet Web site 
address is www.Ameritech.com/Y2K. Ameritech is sponsoring a 
forum in different cities throughout the region over the next 
several weeks to discuss Ameritech's Y2K initiative with 
cities--city and county officials, with a particular emphasis 
and focus on 911 systems. In fact, today some of my colleagues 
are in Cleveland making that presentation and will be in 
Indianapolis tomorrow.
    Other activities we have done to keep customers informed 
include customers' visits to our network lab, where testing is 
conducted at Hoffman Estates, IL. We have produced news 
releases and quarterly reports that explain our progress, and 
we have held visits and conference calls about our readiness 
for telecommunications industry analysts interested in our 
progress.
    On behalf of our year 2000 director, Fred Cowitz, we are 
pleased to have the opportunity to testify before this 
committee, and we would like to commend the committee on its 
efforts to assist in meeting the year 2000 challenge.
    [The prepared statement of Mr. Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.038
    
    [GRAPHIC] [TIFF OMITTED] T7495.039
    
    [GRAPHIC] [TIFF OMITTED] T7495.040
    
    [GRAPHIC] [TIFF OMITTED] T7495.041
    
    [GRAPHIC] [TIFF OMITTED] T7495.042
    
    [GRAPHIC] [TIFF OMITTED] T7495.043
    
    [GRAPHIC] [TIFF OMITTED] T7495.044
    
    [GRAPHIC] [TIFF OMITTED] T7495.045
    
    [GRAPHIC] [TIFF OMITTED] T7495.046
    
    [GRAPHIC] [TIFF OMITTED] T7495.047
    
    [GRAPHIC] [TIFF OMITTED] T7495.048
    
    Mr. Burton. Thank you, Mr. Mitchell.
    Who is next?
    Mr. Beering. Mr. Sloan from AT&T.
    Mr. Burton. Mr. Sloan.
    Mr. Sloan. Good morning. I would like to thank you, Mr. 
Chairman, and members of the committee, Congressmen, for 
allowing AT&T the opportunity to brief you on its preparation 
for the Y2K event.
    I would like to say that several years ago AT&T recognized 
the importance of this Y2K event, and began by putting in place 
a rather extensive Y2K program. AT&T started with what I will 
call the executive authority or executive mandate. Our 
chairman, Mr. Michael Armstrong, brought together all of the 
different business units of AT&T, as well as the different 
operational-type, engineering-type people to put together a 
rather extensive plan.
    The first step of that plan started 2 years ago in 
identifying all of the different relevant systems' piece parts 
which are necessary for AT&T's network to perform; and, 
therefore, for AT&T to deliver all of the services that it 
delivers today to its customers.
    The slide above gives you a brief review of those different 
systems, and as you can see, it starts off with different 
software programs which AT&T has written to run its network, to 
bill for services rendered, and to provision those services.
    Next drop down to the internal computer infrastructure 
which AT&T uses to run its day-to-day business; that would be 
our own local area networks and PCs that we use. Then there is 
the traditional gold-plated AT&T long distance network, which 
would include both the voice network, you are most familiar 
with, as well as all of the advanced ATM, frame relay and data 
networks. And then finally, there are very simple things like 
burglar alarms, air conditioning, heating, ventilation, things 
that are absolutely necessary for our buildings to operate.
    I would like to give you an idea of the immensity and 
complexity of the AT&T program. And as a, what I will call ``a 
phone company,'' our tasks are somewhat similar to what 
Ameritech would have to do. We have literally gone through our 
entire network. We have inventoried all of the different pieces 
of plug-in equipment, vendor equipment, fiber optic equipment, 
digital equipment. Everything was--had to be inventoried and 
assessed for its impact on services if, in fact, there was a 
Y2K problem.
    Upon inventory completion, there had to be an assessment of 
each and every piece of equipment in the AT&T network for its 
vulnerability and then a separate test plan, and contingency 
plan put in place.
    At this point in time, I would like to state that the 
network has been completely tested, and I qualify that by 
saying the AT&T network. In addition to working on our own 
internal issues, our chairman is the chair of the Network 
Reliability and Interoperability Council, and it is through 
this council that we work very closely with other companies, 
such as GTE, Ameritech, traditional phone companies. We work 
very closely with vendors who provide telco equipment--Lucent 
Technologies, Ascend--pretty much anyone who is in the 
telephone business providing equipment to AT&T and other phone 
companies.
    And it is very important to us that not only the AT&T 
network be certified, but that by working very closely with our 
vendors--and we trust our vendors--but by working very closely 
with our vendors we agree that their equipment is Y2K complaint 
and, therefore, will work with our own network.
    In addition, International Forums was mentioned by one of 
my colleagues, International Forums. Let me just state that 
both on a national level, as well as internationally, we are 
meeting, and sharing information. And at this point in time we 
are testing our networks and the services that ride on those 
networks across an AT&T environment, through for example, an 
Ameritech environment, into customer provided equipment, such 
that we can feel fairly confident that after the Y2K event, 
services will be delivered all the way, end-to-end, to 
customers without any interruption.
    Most of the things that we have started have been completed 
already, and there are a few things yet to be done. Items we 
are still doing include final contingency planning and this 
end-to-end testing. We have done the network end-to-end 
testing, and now we are working on the international end-to-end 
testing making sure that calls, data, other information, can 
reach from, say, a New York to a Paris, a Tokyo to a 
California. We expect the completion of AT&T's Y2K work, 
including all of the contingency planning, to be complete by 
the late spring of 1999.
    I would just like to summarize that we have made quite 
significant progress to date, and that all of the AT&T upper 
management, including its CEO, are very actively engaged. 
Funding was released for this program several years ago. AT&T 
has spent hundreds of millions of dollars, and we expect all of 
our testing and work to be complete very shortly this year.
    I would like to thank the committee for this opportunity.
    Mr. Burton. Thank you, Mr. Sloan.
    Mr. Beering. Mr. Edwards.
    Mr. Edwards. Chairman Burton, Congressman Horn, Congressman 
McIntosh, good morning. My name is John Edwards, project 
manager of the year 2000 program for Citizens Gas and Coke 
Utility. Citizens Gas has for over 100 years provided safe, 
dependable natural gas service to the residents of Marion 
County. Citizens values the relationship with our customers, 
the trust placed in us by them, and the high level of service 
expected by them, very seriously.
    As you might expect, we have established operating plans 
which deal with severe weather, natural disaster and general 
equipment malfunctions. We have established plans to recover 
those systems necessary to conduct business in such 
emergencies. These plans allow us to maintain service and make 
it virtually transparent to the customer when difficulties 
occur. Our approach to the year 2000 issue is an extension of 
this mature process.
    While somewhat simplistic, there are two basic questions 
around which we are developing our contingency plans. ``What 
does it take to maintain gas service to the customer?'' And, 
``What does it take to run the business?''
    In general, the gas distribution system operates primarily 
on pressure demand and is not date-time dependent. Equipment 
used to control the pressure operates pneumatically. Certain 
critical applications have a level of redundancy and everything 
is capable of operating in a manual mode. Ultimately, the 
decision process is controlled by a human.
    Mr. Chairman, the following two slides have been extracted 
from an AGA presentation made to the FERC earlier this year. 
This specific diagram represents the extent of the natural gas 
distribution network on a national basis. The following is a 
slide which depicts the year 2000 readiness based on AGA's 
latest survey information. I believe you might be familiar with 
this information, so I will not cover it today.
    Translating into something a little bit closer to home, our 
ability to maintain and in some cases enhance the reliability 
of our business include: our major business systems, with the 
exception of our customer information system, now operate using 
client-server-based technology. The significance is we are no 
longer tied to the old legacy mainframe system with extensive 
lines of custom code which are susceptible to the year 2000 
problem.
    Recently, all desktop PCs were replaced, along with a 
standardization on the Microsoft suite of office products, 
including the NT operating system. We are in the process of 
upgrading both our customer information system and our internal 
telecommunication system. Combined, these two systems represent 
the most critical business systems to our operation.
    Our CIS system is currently a legacy mainframe application, 
which is being transferred to a vended solution, which is 
client-server based. However, the old system, which is the 
legacy mainframe system, is being tested as a contingency, on 
the off chance that the new system is not up and running. So we 
have ourselves covered on both sides.
    Operational readiness relates directly to our ability to 
maintain gas service to the customer. This system is concerned 
with both the technical side of mitigating the operational 
risks, reducing the possibility of a failure, as well as 
consequence management aspect, the actions we take if it does 
fail. The activities highlighted allow us to monitor our gas 
distribution system and safely deliver gas to our customer. 
Developing specific contingency actions, managing our gas 
supply portfolio, and having the personnel available to respond 
are all necessary parts of the overall process.
    The sum of our presentation is whether gas will flow on 
January 1st. Citizens, and the gas industry as a whole, is very 
confident in its ability to maintain service to the customer. 
In summary, we view this issue as a real concern at all levels 
of the organization. We are actively working on remediation. We 
do not expect problems. However, at the same time, we are 
developing the necessary contingency plans just in case.
    Mr. Chairman, that concludes my remarks. And I thank the 
committee for the opportunity to speak.
    Mr. Burton. Thank you.
    Mr. Beering. Mr. Gustin.
    Mr. Gustin. Chairman Burton, members of the committee, 
thank you for allowing us to provide testimony at this field 
hearing today. My name is Joe Gustin, and I am vice president 
of information services; and I am also the officer in charge of 
the Y2K readiness efforts at Indianapolis Power and Light Co.
    Our year 2000 efforts are directed by an ad hoc steering 
committee comprised exclusively of corporate officers; that 
committee meets regularly and provides a general oversight to 
the Y2K efforts of the corporation. Reporting to that steering 
committee is a compliance testing committee and a contingency 
planning group. In all, we have 43 employees with direct 
responsibility to those three committees, and another 100 to 
150 employees in the field and in our generating plants 
actually performing the testing.
    Mr. Burton. I would ask that you would just take the 
microphone and bring it up so the back row can hear. Just move 
it.
    Is that better? Great.
    Mr. Gustin. We have 43 employees that have a direct 
responsibility to these three committees and another 100 to 150 
employees in the field doing the actual testing, remediation, 
and planning.
    Our compliance testing committee is responsible for 
searching all areas of our business and all of our business 
functions that have a possibility of being affected by the year 
2000. Things such as computers, computer programs, vendors that 
provide critical services and equipment with date-sensitive 
embedded computer chips all have the potential of impairing our 
ability to provide electric service to our customers. That 
inventory is essentially complete, with those items being 
ranked as either critical or noncritical to our business. 
Parenthetically, I would say that we class this inventory as 
``essentially'' complete because I think it is important that 
throughout this process we always continue to look for problems 
in our business.
    Our assessment of those points are complete as well, and we 
are well into remediating those systems that we knew either up 
front were not Y2K compliant or that have failed our testing 
protocol. We anticipate having all of those critical systems 
ready and Y2K compliant. We have also contacted over 100 
critical vendors, and we have received statements from many of 
those vendors stating they will be compliant and provide 
services into the new millennium. And we continue to work with 
remaining vendors to assess their individual states of 
readiness.
    Contingency planning is our second line of defense in the 
event compliance testing overlooked a point in the inventory 
process, or if a point was remediated improperly, or in the 
event that there is a disturbance from outside our service 
territory that comes in to us through the grid. We have 
identified roughly 50 core business functions and we have Y2K 
contingency plans for all of those systems.
    We expect the testing and validation of those plans to be 
complete by the end of the second quarter. Concurrently, we are 
conducting testing on the plans that are finished and we expect 
to have all of our training finished by the end of the third 
quarter. We then the fourth quarter this year to do the final 
staging, preparation and rehearsal.
    I would like to talk about three issues that are critical 
to IPL and our ability to provide electricity to our customers. 
Electric utilities are connected to a common transmission grid 
that traverses the entire country. And because of this 
interconnection, there is a possibility that faults in one 
system can travel through the grid and enter another system 
through the points of interconnection. It is because of this 
possibility that the North American Electric Reliability 
Council, NERC, and the Department of Energy are closely 
monitoring the progress of all electric utilities in conducting 
coordinated contingency planning drills.
    The next slide shows the geographical division of NERC. 
Indiana is part of the East Central Area of Reliability 
council, ECAR. We submit monthly reports to ECAR stating our 
readiness and what we have accomplished. ECAR compiles those 
reports and responses from all of the member utilities and 
sends a monthly report to NERC. And then NERC, as you know, 
sends quarterly reports of this progress to the Department of 
Energy.
    At Indianapolis Power and Light Co., we have a very 
sophisticated energy management system that maintains system 
frequency by balancing the flows of electricity into and out of 
our system with our customer load and the amount of electricity 
being generated by our units. We have tested, remediated, and 
retested this energy management system, and we are pleased to 
report that this very critical system has been successfully 
operated for an extended period of time in the year 2000. We 
participated in the NERC April 9th drill to test the 
contingency plans for loss of normal communications. This test 
simulated complete loss of traditional communications between 
generating stations, substations and central operating centers. 
That test for us was an unqualified success. We were able to 
control and dispatch our entire electric system using Y2K-
compliant backup communications.
    On September 8th and 9th, there will be another drill. And 
that drill will be essentially a full dress rehearsal for the 
utility industry. We will also participate in that.
    As far as generation is concerned, all of our major 
generating units over 50 megawatts have been operated in the 
year 2000 as part of our testing protocol. All but one of those 
units are currently operating in the year 2000 date mode, and 
we intend to leave them in that mode until after the real year 
2000 arrives; then their internal clocks will be reset to 
actual time. We have contingency plans in place for those 
units, and they are being tested now and we will be able to 
launch those if necessary.
    And finally, I would like to turn to business functions. 
Last year we began converting all of our legacy mainframe 
systems to Y2K-ready Oracle financials. We finished that 
conversion at the end of 1998. And on January 4th of this year 
we went live with all of our financials on that Oracle system.
    Our service restoration program still resides on the 
mainframe computer. This is the program we use in the event of 
an outage to track incoming calls, analyze outage patterns, and 
help dispatch our crews to efficiently restore service. That 
program has been converted to a Y2K compliant version.
    Our shareholder services program will also remain on the 
mainframe, and it too has been converted to Y2K-compliant 
conversion.
    Finally, our customer billing system is the last major 
program that will remain on the mainframe. We are in the 
process of remediating that legacy system right now and expect 
to finish that effort within the next 30 to 40 days.
    So, in summary, Indianapolis Power and Light, has a Y2K 
plan in place, and that plan is very active. It has high 
visibility, and high priority within our corporation. We have 
successfully completed the April 9th drill and will participate 
in the September 8th and 9th drill. We are actively engaged 
with other city utilities and the Metropolitan Emergency 
Management Group, coordinating our respective year 2000 
contingency plans. And our goal is to have all our critical 
systems ready to go by June 30.
    Thank you.
    Mr. Burton. Thank you, Mr. Gustin.
    Mr. Beering. Mr. Miller from the Indianapolis Water Co.
    Mr. Miller. Mr. Chairman, thank you for this opportunity to 
tell you how Indianapolis Water is prepared for the year 2000.
    We are the largest private investor-owned water utility 
serving a metropolitan area. We have been serving Indianapolis 
since 1881. Today, we have an average demand of 132 million 
gallons a day serving over 240,000 customers. Our primary 
source of supply is here locally, consisting of three 
reservoirs, each with a capacity of 7 billion gallons and one 
ground water major source on the south side of Indianapolis, 
which, when filled out, will have the capability of 80 million 
gallons a day capacity.
    We have been working closely with the other utilities to 
identify critical facilities for the past year. And internally 
we have been checking out our pump valve and purification 
control, hardware and software for year 2000 compliant. And we 
are in the process of updating our latest little item, which is 
a $700 auto dialer.
    Our internal IT people, they are working on the software 
for billing and customer service, and that will be completed 
by--June 1st is their target deadline. We have 6 million 
gallons of elevated storage of water, and another 60 million 
gallons of underground finish water that can be pumped into the 
system.
    At our major facilities, we have diesel generators to drive 
the treatment process and engine-driven pumps to pump the water 
out into the system, should we lose power or there be a major 
ice storm or any other natural emergency. We have 3 days' of 
fuel at these facilities and we will have arrangements for 
additional fuel tankers to be on the property should an event 
occur and last of any length.
    In summary, Indianapolis Water has an average day demand of 
132 million gallons a day. We anticipate on a typical New 
Year's Eve, usage of 100 million gallons, and with our 
generators and pumps, we can treat and pump 160 million gallons 
a day into the system, ensuring that these flows will assure to 
the community adequate fire protection and normal water usage.
    Thank you.
    Mr. Burton. Thank you.
    [The presentation of Messrs. Beering, Miller, Edwards, 
Gustin, Mitchell, and Sloan follows:]

[GRAPHIC] [TIFF OMITTED] T7495.049

[GRAPHIC] [TIFF OMITTED] T7495.050

[GRAPHIC] [TIFF OMITTED] T7495.051

[GRAPHIC] [TIFF OMITTED] T7495.052

[GRAPHIC] [TIFF OMITTED] T7495.053

[GRAPHIC] [TIFF OMITTED] T7495.054

[GRAPHIC] [TIFF OMITTED] T7495.055

[GRAPHIC] [TIFF OMITTED] T7495.056

[GRAPHIC] [TIFF OMITTED] T7495.057

[GRAPHIC] [TIFF OMITTED] T7495.058

[GRAPHIC] [TIFF OMITTED] T7495.059

[GRAPHIC] [TIFF OMITTED] T7495.060

[GRAPHIC] [TIFF OMITTED] T7495.061

[GRAPHIC] [TIFF OMITTED] T7495.062

[GRAPHIC] [TIFF OMITTED] T7495.063

[GRAPHIC] [TIFF OMITTED] T7495.064

[GRAPHIC] [TIFF OMITTED] T7495.065

[GRAPHIC] [TIFF OMITTED] T7495.066

[GRAPHIC] [TIFF OMITTED] T7495.067

[GRAPHIC] [TIFF OMITTED] T7495.068

[GRAPHIC] [TIFF OMITTED] T7495.069

[GRAPHIC] [TIFF OMITTED] T7495.070

[GRAPHIC] [TIFF OMITTED] T7495.071

[GRAPHIC] [TIFF OMITTED] T7495.072

[GRAPHIC] [TIFF OMITTED] T7495.073

[GRAPHIC] [TIFF OMITTED] T7495.074

[GRAPHIC] [TIFF OMITTED] T7495.075

[GRAPHIC] [TIFF OMITTED] T7495.076

[GRAPHIC] [TIFF OMITTED] T7495.077

[GRAPHIC] [TIFF OMITTED] T7495.078

[GRAPHIC] [TIFF OMITTED] T7495.079

[GRAPHIC] [TIFF OMITTED] T7495.080

[GRAPHIC] [TIFF OMITTED] T7495.081

[GRAPHIC] [TIFF OMITTED] T7495.082

[GRAPHIC] [TIFF OMITTED] T7495.083

[GRAPHIC] [TIFF OMITTED] T7495.084

[GRAPHIC] [TIFF OMITTED] T7495.085

[GRAPHIC] [TIFF OMITTED] T7495.086

    Mr. Beering. Mr. Chairman, that concludes the formal 
presentation on the part of the utilities panel. We would be 
happy to field any questions that you or your colleagues may 
have.
    Mr. Burton. Thank you.
    You can turn the lights up a bit now. Mr. Horn, do you want 
to start with the questions?
    Mr. Horn. Actually, I would be glad to yield to Mr. 
McIntosh. If he doesn't cover something, why I will be glad to 
jump in.
    Mr. McIntosh. Thank you. I had just a couple of questions 
that came up as a result of the presentation, which I thought 
were very impressive.
    You mentioned, Mr. Mitchell, that you had been working with 
your customers on making sure that the equipment that they own 
and operate, that they are aware of potential problems. What 
are you finding in that inventory?
    I imagine there is a range from some equipment that is Y2K 
compliant and some that isn't anywhere near it. How would you 
evaluate the risks to the system and the different customer 
equipment that you are aware of?
    Mr. Mitchell. As you said, Congressman, it is all of the 
above. Those items and pieces of equipment, or pieces of 
telecommunications equipment that might connect to our network, 
we are listing those on our Web site. We are informing 
customers as we interface with them. The volume of that, the 
size of the problem, is not overwhelming. I wouldn't be able to 
put a percentage on it at this time.
    Mr. McIntosh. Is most of it business customers that have, 
say, Centrex or other types of exchanges?
    Mr. Mitchell. Primary PBXs, private lines, that kind of 
thing. They need to be aware primarily.
    Mr. McIntosh. How about for residential users? Is there a 
list of different fax machines or telephones that they might 
have that you guys keep track of, some of the companies said, 
these work, and others you don't have information on?
    Mr. Mitchell. Yes. Others we don't have information on; 
that is correct.
    The other piece of information you should be aware of is 
the equipment itself may indeed work after the year 2000, but 
certain functions that are time and date sensitive stamp may 
not. Such as, When did the fax come in? It may have come in on 
January 1, 1900, based on the date on the top of the fax, but 
it indeed came in.
    Mr. McIntosh. Right. So people will have to figure out 
their own systems and take a look at them and see what they 
might need to do, correct minor problems like that.
    Mr. Mitchell. That is what we are recommending, yes.
    Mr. McIntosh. Do you plan to do any mailings or 
distribution to your customers with that information?
    Mr. Mitchell. We have some mailings that we will be doing, 
particularly on the equipment we own, for instance, with 911 
systems. We have several different manufacturers of the 
equipment. We don't do manufacturing ourselves, so when we 
complete all the 911 systems that are manufactured by Lucent, 
when we know those are Y2K ready, we send out a mass mailing to 
the 911 systems.
    We have got about 850 public safety agencies we support in 
the five-State area Ameritech operates in. So we will be 
sending those out in May.
    Mr. McIntosh. The only other question I want to ask at this 
point was to Mr. Edwards.
    I noted you indicated that you had changed your computer 
and were keeping the legacy computer in place. Do you see other 
benefits, essentially for that changeover, that perhaps were 
spurred on by the necessity of being Y2K compliant?
    Mr. Edwards. Of maintaining the legacy system?
    Mr. McIntosh. No, of transferring to the new one.
    Mr. Edwards. It is a realization of greater business 
technology more than anything. That is really what drove the 
process to move, to being that transformation of going from the 
legacy system into the client service system. Certainly, the 
year 2000 has helped accelerate some of that activity, but that 
wasn't the initial driving impact in this instance.
    Mr. McIntosh. The reason I asked is, I have heard 
anecdotally that there may actually be a benefit to the economy 
in the sense that many businesses have chosen to accelerate 
some of the efficiency gain--or technology transfers that could 
lead to efficiency gains, and yours seems to be a potential 
example of that.
    Mr. Edwards. That is correct. We really looked to advance 
the business and move forward. With deregulation of the natural 
gas industry, the legacy systems don't support that, so we had 
to make that move initially. That is really a business issue.
    Mr. McIntosh. OK. Those are the only questions I have, Mr. 
Chairman.
    Mr. Burton. Thank you, Mr. McIntosh.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    Just along Mr. McIntosh's point, let me ask one semirelated 
to that last question, and that is the degree to which you 
found this exercise in trying to figure out the impact of the 
year 2000 on your particular systems, has that enabled you to 
really go through and think through the various mission 
critical systems that each of the firms have? And have you 
decided that it has nothing to do with the year 2000, that, 
Hey, we really don't need that system or we need a better 
system, et cetera? How often has that happened with you?
    In other words, I am trying to look for the constructive 
aspects of not just repairing something on the year 2000 bit, 
but what has it done to improve--and this is Mr. McIntosh's 
question, too, I think--What has been done to improve your own 
business once you gave it some thought? You know the old line 
of ``garbage in, garbage out.'' And sometimes these systems 
just grow up, and nobody takes a look at them and says, Do we 
really need to do this, or is there a better way to do it? 
Because all computers do is reflect what your own 
decisionmaking ought to be in any particular firm.
    Do you want to start down the line, Mr. Beering? Have there 
been any situations where you have gotten rid of systems that 
have nothing to do with the year 2000?
    Mr. Miller. I will just speak for the water company, Mr. 
Beering and myself. Yes, as we start this process, our biggest, 
major investment to date is replacing our phone system, which 
is 1976 vintage. And it is driven--it will still function in 
the year 2000. We won't have the date stamp. But as of 1999, 
replacement parts are no longer being made. That forced us to 
look at something that was becoming obsolete instead of 
becoming obsolete and catching us after the fact.
    Being acquired by NIPSCO Industries 2 years ago, just for 
efficiencies and consolidations, we have gone through a process 
of changing over all of our financial packages and accounting 
packages, and as I had mentioned, customer information 
services, just were more efficiencies, and going to the 
platform migrations.
    Mr. Horn. Any thoughts on that?
    Mr. Edwards. Just to add to my comment to Mr. McIntosh. We 
had found several obsolete packages that were being used that 
were being supported for no reason, and those, obviously, have 
been eliminated. But again, I would really like to drive home 
the point it is a business opportunity for us; by upgrading and 
moving our technology forward, we are certainly capable of 
being able to do more.
    Mr. Burton. Can you put the microphone in front of you? 
They can't hear you in the back.
    Mr. Horn. Go ahead.
    Mr. Edwards. As I said, it is really a business issue, as 
we advance the technology, to allow us to do a better job of 
doing the business of being in business. It really is an 
enhancement to our system and supports our overall efforts 
toward the natural gas industry and serving the residents of 
Marion County.
    Mr. Horn. Mr. Gustin.
    Mr. Gustin. Speaking for IPL, one of our biggest 
expenditures in the last 2 years has been the conversion of our 
financials from mainframe legacy systems to Oracle. I can say 
that decision wasn't made entirely as a result of Y2K, although 
we are getting some year 2000 benefits from that. But that move 
to enterprise resource planning has given us the opportunity to 
access information much easier than we could have with the 
legacy systems; it has given us the ability to analyze and 
convert that data, that information into knowledge.
    As far as examining some of our business functions, we have 
a very comprehensive set of disaster recovery plans, as you 
might well expect for an electric utility. Part of the Y2K 
effort, though, has caused us to go back and review every one 
of those disaster recovery plans. We have made some 
modifications to those, and because of the year 2000, we have 
added things to those existing plans. So year 2000 has made us 
improve those types of disaster recovery issues.
    Mr. Burton. Mr. Mitchell.
    Mr. Mitchell. One of the learnings I think for Ameritech, 
and maybe for business in general, has been, we have probably 
got the most extensive comprehensive inventory of what is in 
our systems that we have ever had. That means some of the 
things, some of the embedded systems that have been built on 
top of each other over the years, no longer are really 
necessary. And as Mr. Edwards said, we have eliminated those. 
And where we can, we--we do that very restfully.
    We also look at upgrading things now in 1999 that we were 
going to do in the year 2000 or beyond. We have accelerated 
those to include that this century. Those are going to be 
representing tremendous cost savings for the company.
    Mr. Burton. Mr. Sloan.
    Mr. Sloan. Excuse me. Thank you.
    There are two main advantages, or opportunities rather, 
that the Y2K problem presented us with. First, like the other 
firms present before you, we did have an opportunity to fully 
assess all of the different equipment and systems that we had, 
and we speeded up the retirement of some of those systems.
    Because of the digital revolution, a lot of what is in the 
AT&T network is fairly new, installed in the last 10 or 15 
years. So we do not have some of the problems maybe that some 
other folks have. But at the same time, we did have some 
carryover systems that we looked at, and it was a matter of, Do 
we make it Y2K compliant or do we just simply retire it? And so 
we opted for early retirement of those systems.
    The second item, which is a little subtle, is that this Y2K 
problem gave us, as an industry, an opportunity to get 
together. And as you all know, if one part of the industry 
standardizes on one set of standards, and another wants a 
different set of standards; if we are not working together, 
having this engineer meet with that engineer; and having those 
type of relationships exist between policymakers a little bit 
higher up, then sometimes you have the Tower of Babel, where 
things just don't work together as well as they should, or 
perhaps at all. So I saw it as an excellent opportunity for us 
to meet on a regular basis and to sit down with a lot of our 
brethren in the telecommunications industry.
    Mr. Horn. Mr. Chairman, I see my time is up. I hope we have 
a second round here, but I think you probably have some 
questions. Do you want to do it now?
    Mr. Burton. Why, thank you. I will ask a couple questions, 
and I will yield back to you, Mr. Chairman. I liked your 
biblical metaphor.
    Let me start off by saying--by asking a question about the 
electrical system at Indianapolis Power and Light. When you 
sent out billings--and you and I talked about this last night, 
so this is more for public consumption because I think you 
answered my question--there was some concern among a lot of the 
people who received the billing and the information that there 
might be an outage or outages as a result of the Y2K problem. 
And last night at dinner, I think you elaborated on that to me 
and indicated that this would not be out of the norm.
    So could you, for the benefit of anyone else who is paying 
attention, go into that in some detail?
    Mr. Gustin. Yes, I would be glad to. I think there may have 
been some negative reaction by some of our customers regardng 
that first statement that was issued. What we intended to get 
across to our customer base, though, is that they should take a 
look at how they use electricity in their own lives, because 
there are many things other than year 2000 that could affect 
service and delivery--tornadoes, ice storms, cars hitting light 
poles on the corner; those types of things can also stop the 
flow of electricity to customers. And we thought it was 
important that we just refresh that in our customers' minds, 
and take a look at how, in fact, they use electricity and how 
important it was to them.
    We don't guarantee electric service. We don't guarantee 
uninterrupted flow of electric service, but I hope that as our 
customers see these presentations and learn and understand the 
types of efforts that we have put into Y2K remediation that we 
all benefit from the situation.
    Mr. Burton. I guess the point I wanted you to make, and I 
hope it is clear is that you don't anticipate anything that 
would cause outages any more than you would if there was an ice 
storm or a tornado or a car hitting an electric utility pole 
and knocking out the service.
    So you don't think there are any unusual things that are 
going to happen because of the grid system or anything like 
that?
    Mr. Gustin. Well, I don't know that I can foretell what 
things might happen with the grid. But as each day goes by, we 
see that more and more utilities are, as we are, I feel, having 
all of their units already operating in year 2000; having their 
main computer systems operating in the year 2000. The 
likelihood of problems goes down every single day.
    Mr. Burton. Well, let me ask it one more way, so we can be 
as clear as possible.
    Is the likelihood of an outage because of the grid system, 
or something related to the Y2K program, is it any greater than 
we would have from an ice storm, for instance?
    Mr. Gustin. Mr. Chairman, I don't know that I can really 
answer that question. I don't know.
    Mr. Burton. OK.
    Ameritech, in your comments, you said that the suppliers 
were going to be responsible for informing individuals and 
companies about problems that might have--they might have with 
equipment outside of your control. Are you working with and 
contacting those suppliers to make sure that they are informing 
the customers that there might be a problem with their 
equipment?
    Mr. Mitchell. Absolutely. We have got a very comprehensive 
supplier management program in place.
    Mr. Burton. So are you working hand in glove with them to 
make sure that the customers are all informed that there might 
be a problem beyond your control that the supplier would have 
to deal with?
    Mr. Mitchell. Absolutely. We are telling the customers on 
one hand, but we are certainly advising the suppliers they have 
to take action, too.
    Mr. Burton. Are any of you affected by something that might 
happen in another part of the world? I know there are many of 
us in Congress that have heard that there might be an 
interruption of oil supplies because of the Middle East--
because they are not computer Y2K compliant. Would that affect 
any of your industries or any of your services to the 
constituents we represent? You don't think it will have any 
impact?
    Mr. Gustin. From the electric utility standpoint, we do 
have units that burn fuel oil for electric generation. Those 
units only amount to a small percentage of our total installed 
capacity. The remainder is coal-fired, so I don't see that that 
would have a long-term adverse effect.
    Mr. Burton. But are you storing reserves just in case of 
that eventuality?
    Mr. Gustin. Prior to December 31st we will have an increase 
in the supply of coal that we would normally have, and we also 
will have much more fuel oil on hand than we normally have.
    Mr. Burton. So you will have contingency plans made in case 
there is an interruption of those energy sources?
    Mr. Gustin. That is correct.
    Mr. Burton. I do want to ask you a question. You mentioned 
then--this is not of a local nature--but you mentioned that FAA 
and some of the health care industries at the Federal level 
were not compliant. A lot of us fly a lot and may be on a plane 
on January 1st. I would just like to know why the FAA is not 
compliant, and what can we do to get them compliant. Because I 
don't want to be up there when the communication goes out.
    Mr. Willemssen. A couple of points on FAA. One, they have 
got a tremendously late start in addressing with Y2K. When we 
testified before Chairman Horn in February 1998 many of the 
basic management mechanisms that should have been in place were 
not in place. So they were way behind from the start.
    They have made tremendous progress in the last 12 to 15 
months under the new administrator, so they have done some 
great things. Unfortunately, their environment is so computer-
intensive and so far flung across the Nation, that there still 
remains quite a bit that needs to be done, FAA has about 20 
major en route centers and about 180 various terminal radar 
approach control facilities, so there is a lot to do yet. But 
they are going in the right direction. They have got a good 
plan in place with a little room to spare, but not much.
    Mr. Burton. Well, let me just followup by saying, are we 
going to have people at risk in January when these planes go 
into the air? Will they be compliant by that date, in your 
opinion?
    Mr. Willemssen. I think, under the current scenario, it is 
likely that there may be some system failures. Fortunately, FAA 
has put a lot of effort into a business continuity and 
contingency plan, so that to the extent that there are some 
system failures, they will have backups in place. I am fairly 
confident of that.
    I would not be confident in saying that there will be 
absolutely no problems.
    Mr. Burton. Are you going to be willing to fly on January 
1st?
    Mr. Willemssen. I would make that decision based upon data 
available later in the year, frankly.
    Mr. Burton. I would like you to keep me and the committees 
informed as much as possible about that.
    Mr. Horn. Well, if I might, Mr. Chairman, we have had 
extensive hearings with the new administrator. She was 
blindsided by some of her staff, and I told her in my first 
hearing that, You ought to fire the whole bunch of them. She is 
an outstanding administrator, and she is doing a good job. They 
didn't even tell her what was going on for about 6 months.
    So I think, as Mr. Willemssen says on behalf of the 
analysis of the General Accounting Office, that they are on the 
right track. I have said I would fly January 1st; that has not 
pleased my wife. But the administrator would do it. She is 
going to go Washington-New York. I am going Washington-Los 
Angeles, assuming we don't vote for 1 or 2 days. So I don't 
want to miss votes.
    But the fact is, they are--they have got it on the right 
track, and I think we could be optimistic. The fact is that the 
administrator has complete power from the Congress to give an 
order to any plane on the ground when it comes to safety. So if 
they feel there was an overload on the system of radar and 
whatnot, that she can deal with that, and her people can deal 
with that delegated authority from her.
    So nobody is going to be in an unsafe situation; let's put 
it that way. We have people running around loose--I even had 
one on my committee several years ago that said, Oh, planes are 
going to drop from the sky. Well, hopefully, they will be 
piloted and landing in a landing field.
    It isn't planes dropping from the sky, but there are a lot 
of people who like to sell books, as I said earlier, or get 
radio programs, or ratings, or whatever, or TV programs; and I 
just think that that is nonsense. They are not going to take 
off. And we will know in time, as Mr. Willemssen says. He is 
right to wait a little longer in the year until we see what 
happens.
    Mr. Willemssen. If I may add, Mr. Chairman, I have had 
several years of experience working with FAA systems. And 
within the systems environment, safety has always been the 
paramount issue, so that to the extent that FAA does have some 
systems-related problems come January 1, 2000, I would expect 
that not only would they put contingencies in plans, but they 
will not risk the safety of the flying public.
    Mr. McIntosh. Would the gentleman yield for another 
followup in that area?
    Mr. Burton. Sure.
    Mr. McIntosh. Mr. Willemssen, I read in the paper recently 
that they were testing a new computer system at FAA, and that 
they were not happy with the speed at which they were able to 
follow the planes. Is that on a separate track for the year 
2000, or part of the same one that you were describing?
    Mr. Willemssen. That is on a separate track. And because 
FAA cannot rely on that replacement system as their Y2K 
solution, they will have to remediate the existing systems as, 
again, a backup.
    Now, to the extent that some of these new systems come in 
at the time, great. But we would concur with FAA, not to rely 
on the replacement system, especially with the problems it is 
having. It needs to go into the existing system, remediate that 
to make sure that it works through the change of the century.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Just to followup on a couple of questions. A 
number of you used the phrase, ``contingency plan,'' and Mr. 
Burton in his questioning got out of one of you what one of 
those examples was.
    When we surveyed the Federal agencies, they keep reporting 
to us ``in progress.'' In other words, they don't have a 
contingency plan. Or some of them have the U.S. Postal Service 
as their contingency plan.
    So then we called a hearing with the U.S. Postal Service, 
and they don't have a contingency plan. And everybody is 
depending on them to get momma's check out or Aunt Minnie's 
check or whatever, and instead of electric deposit, which is 
the sensible way to do things and avoid robbery, burglary, and 
all the rest that goes on with Federal checks.
    But I would just like to go down the line, and if you could 
tell me, what is the contingency plan that you have. Let's just 
start in the order, with the water company.
    Mr. Beering, what is the contingency plan?
    Mr. Beering. Congressman Horn, one of the real success 
stories from Indianapolis is that we have long been on the 
forefront of emergency planning. In my last position with the 
Indianapolis Department of Public Safety, I was largely 
responsible for a complete rewrite of the Indianapolis and 
Marion County Emergency Operations Plan. That plan, when it was 
retooled, embraced the local utilities and recognized the 
importance of having them participate in broader community 
emergency planning to the quick restoration of normalcy for 
both the customers and also for the citizens who rely on 
various city and other services. That planning effort has 
continued among the utilities that you have heard from this 
morning. We have----
    Mr. Horn. Well, let me just ask this: Is there a grid for 
water as there is a grid for some aspects of power?
    Mr. Beering. There is not.
    Mr. Horn. OK.
    Mr. Beering. We are able to purify and deliver water using 
engine-driven pumps far in excess of what the anticipated 
demand would be. And we are also able to help IPALCO in the 
event that there is a problem, because we can load shave for 
them. We represent one of their larger customers and are able 
to spin up our generating and fuel-driven machinery to take 
some of the burden for them.
    Mr. Horn. Well, would you say it would be wise for somebody 
to at least have a couple of 5-gallon cans of water around?
    Mr. Beering. I think that our consensus recommendation has 
always been to encourage people to follow both Red Cross and 
FEMA guidance; and that is, that all citizens should always 
have 72 hours' worth of supplies available to them. And that 
would include battery-operated flashlights, battery-operated 
radio equipment, and enough supplies so that they can sustain 
themselves.
    Mr. Horn. Well, as has been noted here, the sewage people, 
the waste disposal people, aren't really represented on this 
panel.
    Does anybody know what they are going to do if you don't 
have any water and things can't be flushed?
    Mr. Beering. Actually we do. We have had extensive 
discussions with our colleagues from that particular operation, 
the White River Environmental Partnership. They have identified 
15 out of their, I think, it is 350 lift stations, they have 
shared with IPALCO, those that are deemed to be the most 
critical in terms of keeping sewage out of people's basements.
    In addition, fortunately, much of the sewage system is a 
gravity-feed system that does not particularly require 
electricity. There are certain parts of the process that do 
require electricity, and they are developing some contingency 
plans to be able to operate all parts of the collection and 
treatment system, so that we are not going to have a problem 
with sewage.
    Mr. Horn. Anything to add, Mr. Miller?
    Mr. Miller. Just that we do have a draft written of our 
contingency plan and have identified key people that can't take 
vacation.
    Mr. Horn. Mr. Edwards, when it comes to the gas company, I 
am reminded that Russia supplies most of Eastern Europe and 
some of Central Europe with most of the natural gas. Now, this 
is all going to occur in the case of Europe, and would also in 
Indiana--you get some, not exactly sunshine every day in 
January, so that would be a problem.
    And we are told that the refineries have a microprocessor-
microchip problem. We are told that the pipelines in Europe 
have a microchip problem; we are told that the refineries in 
Europe have a microchip problem.
    Do we have a similar problem in Indiana in terms of where 
your gas sources come from, how they get there so you can 
utilize them with your customers?
    Mr. Edwards. The analogous grid of the natural gas 
industry, I will refer back to the overview slide of the gas 
process, which was in the presentation. We get--the primary 
supply of our gas comes from two major suppliers, and it comes 
basically out of the Louisiana Gulf area, as well as from the 
Oklahoma-Texas panhandle area.
    The ultimate contingency for us would be a complete failure 
of that national grid for natural gas distribution. In that 
case, it reverts back to the way we managed our supply 
portfolio. Citizens is not unique in the natural gas industry, 
but we have company-controlled supplies, which on a ultimate 
failure scenario, would last us, without interruption of 
service, for at least a week. Certainly, those supplies can be 
extended.
    And the other part of that contingency is to look at our 
interruptible customers and being able to extend that supply.
    Mr. Horn. Is that sort of the national standard, to have at 
least a week of supplies in the natural gas field?
    Mr. Edwards. I cannot comment on that, sir, as far as the 
national standard. It just so happens that the underground and 
above-ground storage that we have gives us enough supply, based 
on an average day's use in January, of about 7 days' worth of 
capacity.
    Mr. Horn. How about the contingency plan, Mr. Gustin? Any 
further comments on that?
    Mr. Gustin. We don't have a single contingency plan; we 
have numerous contingency plans for all of our various business 
functions.
    I know there is a concern about the electric grid and what 
might happen to that. And I don't know that anyone has a real 
definitive answer. I can tell you that this grid is a very vast 
and very robust piece of infrastructure. It has over 600,000 
miles of transmission distribution lines, it has over 800,000 
megawatts of capacity that is installed at various points about 
the grid; and it would take a very significant disruption to 
bring that grid down.
    From our perspective, the worst case in any electric 
utility industry would be the loss of the grid. We have----
    Mr. Horn. Well, of the various grids you showed us here, 
now, is there interchangeability among all of those grids so 
they could move from the West or the East and give you power if 
you didn't have them?
    Mr. Gustin. There is good interconnectability east to west 
and north to south. There is limited interchange ability 
however between Texas and the other areas.
    From our perspective, we have what is called ``black 
start'' capability at each one of our generating stations. And 
in the event that the grid goes down, and there is no 
electricity flowing, we have the ability to start all of our 
generating units up from a black start and connect our customer 
base independent of the grid.
    Mr. Horn. And that would take how long?
    Mr. Gustin. It is hard to tell.
    Mr. Horn. A week, 2 days?
    Mr. Gustin. Probably less than a week.
    Mr. Horn. Less than a week. So presumably then we could 
work our way out of that.
    Mr. Gustin. We would have the ability to work our way out.
    Mr. Burton. Would the gentleman yield?
    Mr. Horn. Sure.
    Mr. Burton. If you had that kind of grid catastrophe and 
interruption, and you say it is up to a week to get those gas-
fired generator, oil-fired generators to get started, you are 
talking about an outage of up to a week, you said?
    Mr. Gustin. It is possible. I don't think anybody has a 
good handle on that.
    Mr. Burton. OK. Let's just say, advising the citizens of 
Indianapolis for any contingency, what would you advise them to 
do in the event that there was that kind of a problem with the 
grid system and the startup time was up to a week? Would you 
ask them to have generators or what?
    Mr. Gustin. Well, that is a concern for us. I know that 
there are a lot of homeowners out there that are buying 
electric generators. We are concerned about that from a safety 
standpoint. If those generators are installed improperly, there 
is a risk of electric shock, explosion, to the homeowner. There 
is also a risk that our linemen will be exposed to stray 
currents because of those electric generators.
    So I would certainly like to take this opportunity to let 
all of our customers who have those types of generators know 
that we have a problem with that. And, please, if you are going 
to hook those up, get a qualified electrician to do that for 
you.
    Mr. Burton. Of course. But I guess the question isn't 
really answered.
    Your contingency plan is the black generator option, I 
guess that is what you call it?
    Mr. Gustin. ``Black start'' capability.
    Mr. Burton. Black start capability would not be something 
of an immediate nature? You couldn't start it up--if there is 
an outage in Indianapolis, you couldn't start it up within a 
couple of hours?
    Mr. Gustin. Probably not.
    Mr. Burton. How long would it take, did you say?
    Mr. Gustin. That is hard to say, because when a unit is up 
to operating temperature and hot, and it trips off the line, 
those types of restarts can be done fairly quickly within a 
couple of hours. But if the unit is cold, it takes a much 
longer time to do that.
    I think in that particular scenario, more of the problem 
would come with synchronizing all of the generating units and 
placing the system back into service, section by section. And I 
don't know honestly how long that might take. It would be--it 
would certainly be site specific.
    Mr. McIntosh. Mr. Chairman, if you would yield for a 
second.
    Mr. Burton. Steve has the time.
    Mr. McIntosh. Steve?
    Mr. Horn. Yes.
    Mr. McIntosh. Followup on a question on that: If the grid 
went down, just so I understand it correctly, and you had to go 
through this black start, what protection do you have that the 
electricity you generate doesn't flow outside of the--your area 
into the grid that has a problem?
    Mr. Gustin. We are connected to the grid at 11 different 
points.
    Mr. McIntosh. Do you disconnect those----
    Mr. Gustin. Yes, if the grid is completly de-energized.
    Mr. McIntosh [continuing]. And serve your own customers?
    I see.
    Mr. Horn. Do you have primarily hydro production of 
electricity, or are there nuclear reactors involved?
    Mr. Gustin. No, we have no hydrogeneration, we have no 
nuclear generation. Our generation portfolio is approximately 
95-96 percent coal-fired and the balance oil or natural gas.
    Mr. Horn. Let's finish on the contingency plan.
    Ameritech, what is our contingency plan?
    Mr. Mitchell. Well, we operate in the contingency mode 
quite a bit, as mentioned. The weather we have, summer, winter, 
things that go wrong, as people are digging, backhoes knock out 
cable and telephone lines, so we are already prepared to go 
into contingency mode at any time. So if we lose electricity in 
the summer, perhaps from a thunderstorm, we have backup 
batteries as well as backup diesel generators at our 1,400 
central offices.
    The other thing that we are focusing on, besides the 
various multiple contingencies, is also business continuity 
plans. So if for some reason you could not handle the day-to-
day business of installing, repairing and maintaining telephone 
systems, how would we go about that if we had to bill people 
manually? If we had to get the repair records manually, we are 
going through that process now, so we will be prepared in that 
event.
    Mr. Horn. Mr. Sloan, anything to add for AT&T?
    Mr. Sloan. Not very much. I think the Ameritech spokesman 
said it. Our industry is a model for redundancy and contingency 
planning.
    And I would say this. Vacations have been canceled of all 
management employees a week before Y2K and a week afterwards, 
such that our customers would be able to get in touch. And 
regardless of whether there is power and water, we will deliver 
calls. Customers will be able to call us, as well as anybody 
else that they choose.
    Mr. Horn. See, I remember Washington, DC, when President 
Kennedy was assassinated, everybody picked up the phone and 
called home. The switches just couldn't handle it. That is what 
often happens when people want to share or relate or make sure 
their relatives are OK. That overload really brings the whole 
system down.
    Are you prepared for that?
    Mr. Sloan. Well, the networks are entirely different than 
they were in that timeframe. And I will give you a more recent 
issue we had in the State of Illinois, and it is referred to as 
the Hinsdale Crisis for those in the telecommunications 
business. It was a major catastrophe for the telephone 
business.
    We had a problem in that all of a sudden everyone picked up 
the phone at the same time to try to call their loved ones, 
relatives, to see if they were OK.
    What happens in a modern telephone network is that when 
that happens, our engineers that monitor the network, implement 
what are called ``network controls'' so we can slow down the 
flow and none of our systems are overloaded.
    Customers may experience some delays. However, we will 
still deliver calls. Volume of calls will not bring the network 
down.
    Mr. Horn. That is my last question, but I would like to 
have a subunit here of maybe some questions we would be able to 
send to various gentlemen.
    Mr. Burton. Yes. Would you be willing to respond in writing 
to us so we could have those in the record?
    Mr. Horn. If we missed a few things.
    Mr. Beering. Absolutely.
    Mr. Burton. I want to thank you. It has been a very 
informative panel, and you are to be congratulated on doing a 
good job. But I don't know yet whether I will be flying on 
January 1st, and I am not sure I will buy a generator.
    Mr. Horn. I should tell you, Mr. Chairman. I have told the 
Administrator of FAA she should not be arguing with controllers 
on January 1st.
    Mr. Burton. Thank you very much. I appreciate that.
    Our next panel is going to be elected officials. We have 
the Honorable Dennis R. Redick, mayor of Noblesville; we have 
the Honorable Charles G. Henderson, the mayor of Greenwood; and 
we have the Honorable Carlton Curry, councilman from the city 
of Indianapolis, representing Indianapolis.
    OK, if we can have everybody hold their voice down a little 
bit, we will go ahead and start. My colleagues will be back in 
a moment. Because of the time constraint, however, I think we 
ought to proceed, and then we will get to the question and 
answers.
    This panel consists of the mayor of Noblesville, the mayor 
of Greenwood and Mr. Curry, who is a councilman and leader on 
the council in the city of Indianapolis, and what we wanted to 
do is find out how they are preparing for the Y2K problem. I 
want to make sure everybody who wants to hear can hear.
    So we will start with the mayor of Noblesville, Mr. Redick.

STATEMENTS OF DENNIS R. REDICK, MAYOR, NOBLESVILLE, IN; CHARLES 
    G. HENDERSON, MAYOR, GREENWOOD, IN; AND CARLTON CURRY, 
                  COUNCILMAN, INDIANAPOLIS, IN

    Mr. Redick. Thank you, Chairman Burton.
    Mr. Burton. And could you make sure you pull those 
microphones as close as possible because some of the people in 
the back can't hear you.
    Mr. Redick. The following is a brief overview of the city 
of Noblesville's efforts to become Y2K-compliant. The city's 
Y2K project has several major goals. One is to maintain or 
increase our standards for public safety and communications. 
Second one is to keep the city systems as trouble-free as 
possible. And the third one is to be completed by the end of 
summer 1999.
    Our project is divided into two parts, and these were 
started in late 1997. The first part is the systems are 
committed public safety, specifically the Dispatch Center. The 
second part is the general systems that are related to all 
other city projects. The reasons for the division is limited 
funds and having to prioritize the necessary changes from the 
most to the least critical.
    In our system, the dispatch center and LAN are 
interconnected to allow for advanced resource management by our 
personnel. One of the perceived threats to public safety is the 
loss of power. We have, therefore, placed our dispatch computer 
and emergency operating centers on generator power filtered 
through an un-interruptible power supply. With our current fuel 
capacity, we can operate for 41 days without resupply. All of 
our portable radios are digital, and they have been 
reprogrammed to meet the necessary standards, and our in-car 
computers in the police cars are in the process of being tested 
for BIOS date and compatibility, and the appropriate operating 
system release.
    After the upgrade of the dispatching system, we then 
upgraded the associated application software, And not all of 
these upgrades are complete. Several of other vendors and/or 
related agencies are not yet finished. We fear a flood of last-
minute upgrades and requirements from other Federal and local 
agencies that we are connected to, thus making an emergency 
situation for us to respond to them.
    We have experienced some difficulties with the upgrades. 
For instance, the computer-aided dispatch system is now time-
sensitive, and the entire network has to be in a time lock step 
to prevent emergency alarms from sounding. This is creating the 
need to install a world clock into our system.
    We have also been affected by incompatible programming 
where related systems that once worked now do not, and the 
program interfaces have to be rewritten to get back what we 
lost.
    All of our network nodes have been tested and upgraded, and 
the systems that were not feasible to upgrade have been 
scheduled and funded for replacement. For our applications 
software, we must rely on the vendor's published statements, 
consultant's review, and their final testing.
    After we feel that we are finished with all of the 
necessary upgrades, we will perform a systemwide test. This 
will occur in midsummer of 1999. We will change the date to 
just before midnight on December 31st and let the clock run 
through the end of year and on into the year 2000. We will then 
have each department test their applications and automated 
documents, and from this we will develop a list of any further 
modifications and prioritize them by their urgency.
    Our current progress is excellent for those items that we 
have control over. Our hardware is basically finished, with the 
exception of some subsystems; software is coming along nicely, 
and we are actually ahead in some areas. Where we are behind is 
where we have to wait on outside agencies to make a decision or 
set a standard that is common to all, like public agencies. 
Some vendors and manufacturers have been slow to respond. Some 
have not had patches or fixes available until recently, which 
has caused unexpected delays or issues. Overall, the city of 
Noblesville is ready to handle any problems that may arise. 
Thank you, Mr. Chairman.
    Mr. Burton. We will have some questions for you.
    [The prepared statement of Mr. Redick follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.087
    
    [GRAPHIC] [TIFF OMITTED] T7495.088
    
    [GRAPHIC] [TIFF OMITTED] T7495.089
    
    [GRAPHIC] [TIFF OMITTED] T7495.090
    
    [GRAPHIC] [TIFF OMITTED] T7495.091
    
    Mr. Burton. Mr. Mayor. Mayor Henderson.
    Mr. Henderson. Mr. Chairman, thank you for the opportunity 
to appear here, and I appear here wearing two hats; one as the 
mayor of the city of Greenwood, but mostly today as the 
President of the Indiana Association of Cities and Towns to 
inform what cities and towns across the State are doing and we 
as an association are doing.
    As President of Indiana Association of Cities and Towns, I 
can report that we have been working with the National League 
of Cities and its technology arm, Public Technology, Inc. They 
have been offering up advice and tool kits for member cities 
and towns. IACT held its own technology conference December 9, 
1998, in Indianapolis. I am confident as a result of this 
support, the cities and towns have been supplied with a wealth 
of information. A national update is available online at 
www.algov.org. That is National League of Cities' Access Local 
Government site. At my request, as president of the IACT, the 
IACT monthly magazine, Action Line, which I have here, the 
March issue is devoted to information-sharing from various 
Indiana cities and towns. Most towns feature action plans for 
the Y2K problem. I will touch on some of these in my remarks.
    In Greenwood, in 1997, I asked the city council to fund 
appropriate moneys for a Technology Department, something we 
did not have at that time. That took place effective January 
1998. The city hired a consultant to assist the Department of 
Technology with inventory of all city equipment which might 
possibly be effected by this problem. City officials will 
determine the proper means to correct any inefficiencies that 
might be found. Contingency plans were being developed for 
unexpected problems with city services and from outside 
agencies and utilities, such as electricity, water, natural gas 
and telephones.
    Fishers, IN, a small community to our north of about 25- or 
30,000 people, began planning early 1997. Manager information 
services and task force appointed; inventory of all town 
equipment that took--that could be affected. All items on the 
inventory list were looked at for upgrade or replacement cost. 
Vendors were contacted and all upgrades completed. Working with 
town vendors to determine their ability to provide 
uninterrupted supplies and services. City of Bloomington, IN. 
City of Bloomington's Information and Technology Department has 
been checking all information and technology systems in order 
of importance, with financial systems checked first; 
inventoried systems and all departments; created public 
awareness of the efforts by the city which lead to information-
sharing.
    Lafayette, IN. Inventoried software, hardware, office 
equipment, including fax machines, postage meters and 
diagnostic equipment for vehicles; analyzed which did not meet 
year 2000 compliance; repaired or replaced those items; ensured 
that critical business partners would also be Y2K-compliant.
    Carmel, IN. Conducted inventory of all systems which it 
used and those expected to be used in the future. Project 
manager and steering committee acquired a list of at-risk items 
and ascertained the cost of upgrading to compliant systems. 
Committee identified the systems and components whose failure 
might bring hardship and inconvenience to citizens. This list 
was prioritized. Upon completion, research, gathering 
information, the city began the process of replacing and 
updating those items that were noncompliant; as of December 
1998, began testing the Y2K-compliant system.
    The cities and towns previously mentioned have all attacked 
the Y2K problem in basically the same manner. Each formed 
special committees, hired consultants, inventoried all systems 
that might be affected by Y2K, prioritized these and began 
replacement of deficient systems. Each has looked outside the 
city's offices and to the community, offering assistance and 
information-sharing to obtain compliance. Utility companies 
have had a top priority on the list. Cities and towns are 
attempting to keep services provided to its citizens unaffected 
by Y2K and inspire confidence in the community they serve.
    Mr. Chairman, that completes my formal remarks.
    Mr. Burton. Thank you, Mayor Henderson.
    [The prepared statement of Mr. Henderson follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.092
    
    [GRAPHIC] [TIFF OMITTED] T7495.093
    
    [GRAPHIC] [TIFF OMITTED] T7495.094
    
    Mr. Burton. Councilman Curry.
    Mr. Curry. Thank you, Mr. Chairman, Representative Horn, 
ladies and gentlemen. We have had a number of items occur since 
the last hearing here in Indianapolis, and I would like to 
extend my personal thanks to some of the things actually you 
started here that we have overlooked. For example, I would like 
to extend some appreciation to some of the things going through 
the Congress that would relate to tort support, so that 
committees and cities and counties and communities and 
government agencies who are doing a good will, good faith 
effort aren't subject too much to certain of our colleagues in 
the trial lawyer world.
    Second, we were able to generate better communication and 
coordination with the Department of Correction in Indiana, with 
our county clerk, the justice system, and whatnot, such that 
certain remediation actions that are being done by all of these 
groups are now keyed to the same reference dates, where 
particular programs weren't being redone.
    And last, from the area of Chairman Burton, you and Sheriff 
Cottey, I would like to personally thank you for the assistance 
you did on some capital funds for an automatic fingerprint 
identification system and a mug shot program, because I can 
tell you, we went from leading the pack in Indiana to well 
behind the pack, couldn't communicate with the State police or 
the FBI, but with the new system that is coming on line, which 
we just appropriated money for, we will solve the Y2K issue on 
that as well as let us be a fair partner.
    With respect to works that are going on, I think there are 
still some areas that we can work with noncontractor 
discriminates. What I mean by that is, where we are buying 
services from contractors, it seems to me critically important 
that where we can, as the government is a procurer of the 
services, that we should be procuring to a common standard to 
the degree that is possible. And I would caution from 
experience when I used to do work in a certain part of the 
industry, that that standard that we would like help in is the 
what, not the how. For example, the coding for a fingerprint 
identification varies among about six or seven suppliers, and 
so the various programs actually don't talk to each other in 
terms of developing how that is sensed. And I just used that as 
a single for instance.
    The status of Indianapolis is that, for a change, on some 
of the testimony you have heard, we are actually on schedule 
and under budget. We appropriated $12.9 million new dollars, 
which supplemented the dollars that were already in our budgets 
for the various city and county agencies, and the appropriation 
was in the face of $19-, rising to a $21 million estimate. But 
through our triage approach and specific assignments with a 
series of consultants which were selected in key areas, we 
brought that down to where it appears we will bring it under 
the $12.9. My personal goal was $10 million.
    But in any event, we also had a hearing with the utilities 
in our committees for two reasons. One, we were concerned as to 
whether or not we would have electrical power, gas, long- and 
short-distance communication. We were particularly concerned 
with public safety. It turns out that we have the 800-megahertz 
system in that combined communications with the sheriff, police 
and other law enforcement, fire and providers of medical 
support. And we are set up with 30 days of fuel supply with no 
added effort. This is our standard. I suspect we will probably 
have more than that.
    Then from the city/county council standpoint, we are 
concerned about the attitudes of our citizens, the information 
that they have been getting. We have been using the local 
government channel, channel 16, to provide some advice for 
that. We have also keyed on the 72-hour type of reserve that a 
citizen or group of citizens should have. We have already done 
some work along this regard, and we plan in the August/
September/October timeframe to do more intensive work in terms 
of communicating with the people of Marion County and the city 
of Indianapolis, where they stand with us, what they might 
expect, and how we might then approach.
    And with that, Mr. Chairman, I will end, except for one 
item: I need your vote on May 4th.
    Mr. Burton. You have it. And I am hoping that in a year or 
so you will reciprocate.
    Mr. Horn. And you are welcome to register in Long Beach, 
CA.
    [The prepared statement of Mr. Curry follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.095
    
    [GRAPHIC] [TIFF OMITTED] T7495.096
    
    [GRAPHIC] [TIFF OMITTED] T7495.097
    
    [GRAPHIC] [TIFF OMITTED] T7495.098
    
    Mr. Burton. Mayor Redick, you said that you had generators 
for emergency purposes to make sure that the communications go 
on with fire and police, and you went to a digital--new digital 
phone system so you could stay in touch. I just wanted to ask 
all three of you, in the event that we did have a grid problem, 
or an electricity problem, or a shutdown in any of the 
utilities we are talking about, do you have a backup plan in 
Indianapolis and in Greenwood, as well as Noblesville, to make 
sure that communications take place and that you have an energy 
source to be able to make sure that you can send them that 
information?
    We will start with you.
    Mr. Redick. Yes. Our UPS, the uninterruptible power source, 
we have in place and have always had in place.
    Mr. Burton. That is not only fire, fire, police and 
ambulance service?
    Mr. Redick. Correct. And we can operate that for a total of 
41 days without refueling.
    Mr. Burton. How about in Greenwood?
    Mr. Henderson. Yeah, we are making sure we have an ample 
supply of gasoline, because that is what runs the generators. 
We have major generators in place to run our communication 
system. We have 11 lift stations that lift our sanitary sewer 
to our gravity lines. We have generators and standby for those 
lift station, which don't run continuously, as you know, and 
petroleum for that. We have also put into place a no-days-off 
policy for public safety people to have those folks on standby 
with their vehicles.
    Mr. Burton. What about the length of time that your 
gasoline and fuel supplies to run those things--how long a 
period do you have those for?
    Mr. Henderson. Well, normally our gasoline supply is 
usually a month, but on this we think that if everything goes 
down, it will--we are thinking it will last 2 weeks.
    Mr. Burton. I see. So you do have a supply to keep things 
running?
    Mr. Henderson. For 2 weeks. We are hoping that nothing will 
be more drastic than that. We have to start using it for all 
the generators and things. It will reduce us to about a 2-week 
supply.
    Mr. Curry. We have concern over the supply of fuel for 
vehicles, but as far as the communications, our 800-megahertz 
system is not only a redundant; that is to say, we have a 
second facility, which we can under reduced protocol handle all 
of our public safety requirements for communication in Marion 
County. It is an uninterruptible supply that immediately goes 
to battery, while the generators come up and the generators 
carry on. And we, as our standard course of business, have 
always 30 days of fuel underground at the site. So, from the 
communications standpoint, I, frankly, have few worries.
    Mr. Burton. So, if some kind of a breakdown or emergency 
occurs, how long could you keep everybody in communication with 
one another and keep things moving?
    Mr. Curry. Communication, we're good for at least a month, 
and that is with doing nothing else but what we are already 
doing. With respect to guaranteeing fuel in every police car, 
ambulance, and fire apparatus, that is something that we are 
still wrestling with a number.
    Mr. Burton. So, you don't have a date. You don't have a 
timeframe.
    Mr. Curry. Today I do not.
    Mr. Burton. But you are working on that.
    Mr. Curry. That is correct.
    Mr. Burton. Do you know what the goal is? Is the goal to 
have a week's supply?
    Mr. Curry. My goal, my personal goal, would be that a week 
isn't enough. My personal goal would be 2 weeks.
    Mr. Burton. Two weeks?
    Mr. Curry. And that flies in the face of some other things. 
And we have some meetings that are scheduled, Mr. Chairman, 
with respect to our local emergency management people to help 
work these things out. As a matter of fact, there is a meeting 
this morning at 11 o'clock that is working on this thing. But 
as we approach this incrementally, we are making a strong 
effort to tell the citizens that a 72-hour supply is what an 
individual should have in their domicile. From a government 
standpoint, certain critical services, it seems to me, are 
going to require more than 72 hours, because the fact of the 
matter is if there should be a widespread Y2K occurrence, if 50 
communities are affected around the country, the State and 
local folk can handle that, but if 500 communities are affected 
in each State, there aren't enough resources to handle that. So 
we are going to have to look to home to make sure that we do 
our best and help our neighbors if we can.
    Mr. Burton. Mr. Horn.
    Mr. Horn. All three of you have very well-prepared 
statements, and I thoroughly enjoyed reading them on the plane, 
as well as here. I would just like to ask Mayor Henderson, 
since you are president of the Indiana Association of Cities 
and Towns, have you looked at the Lubbock, TX, experiment, and 
Montgomery County, MD, experiment where they worked on a basic 
emergency function? They said, we are going to pretend that 
January 1 has come, and they stayed up all night and just 
watched what actually happened. Because those are two diverse 
cities that I think we could learn a lot from, and I wondered 
if that information was shared by the National League of Cities 
with the various State affiliates.
    Mr. Henderson. Yes, sir, it was--like I said, in our March 
issue, we dealt with what was going on in the State. In our 
latest issue that just came out last week, we referenced the 
Lubbock, TX, issue and told our membership that that is 
something that they needed to look at and gave them information 
on the computer Web site where they could get that.
    So, yes, we as a staff at IACT have looked and that and 
have moved that information on.
    Mr. Horn. Good.
    I think, Mr. Chairman, before the panel breaks up, I would 
like to have Mr. Willemssen come back, because he might well 
have some national perspective on some of this that I don't 
have.
    Mr. Willemssen. Well, based on what I have heard, it is 
clear that the entities as represented here are aggressively 
pursing the Y2K issue. I think you have hit on the right 
issues. I think that the fact that they emphasized a 
contingency planning element should be noted, and should be for 
the citizens that they represent. They should feel pretty good 
about that, that even in the event that there are system 
failures, that there are backup plans in place.
    Other than that, I think what the chairman said again needs 
to be reemphasized; that many of these communities faced the 
Y2K issues. I think to the extent that we can hear further 
replication of the kind of efforts that the local officials 
here have talked about, the better off we will all be.
    Mr. Burton. Can I ask just one question? You said that 72 
hours of supplies ought to be on hand. Is there any way that 
you are disseminating that kind of information out to the 
people in the center part of the State or Indiana as a whole? 
And are they making a list of the kind of supplies that people 
ought to have on hand as protection?
    Mr. Curry. Yes and yes. What we are doing, Mr. Chairman, is 
we are identifying a recommended list of things that should be 
done and should be purchased, obtained or somehow held 
together. And then that particular list will be a part of this 
August/September/October heavier push, which I talked about 
earlier in my remarks.
    Now, we aren't just going to wait for that, however, 
because we have had a number of programs, again, using the 
local government channel, channel 16, and also local media 
releases, but I think that our biggest push will be in the fall 
as we have completed some of the testing we have, because we 
can also add with that then the status of success at that 
point.
    Most of our systems that are undergoing remediation and 
testing and verification that are critical systems will have 
been tested well before the end of September. And so, if we 
start with the August, September, and October timeframe, we can 
add confidence of actual test results instead of telling people 
how great it is going to be. We can say, here is what we have 
done. Here is what we recommend you might consider. And we will 
do this in a broader basis, but we will be somewhat reliant on 
the media to help carry these things. From the government TV 
channel, I am sure we can influence that locally.
    Mr. Horn. That is all I have, Mr. Chairman.
    Mr. Burton. Well, I don't have any more questions. I think 
you are to be congratulated on moving in the right direction 
rapidly, and if we can be of any help to you in Washington, if 
you need anything, of course, give us a call. We will be glad 
to help you any way we can. Thank you very much.
    Mr. Curry. 256 more days.
    Mr. Burton. The next panel we have is the Honorable Jack 
Cottey, the sheriff of Marion County; the Deputy Fire Chief 
John Spahr, the Lawrence Township Fire Department; our good 
friend and media great, Mr. Greg Garrison; and Miss Kate Ekins, 
manager of public affairs of St. Vincent Hospital and Health 
Services. OK, welcome.
    One of the most important areas that we are going to be 
looking at, of course, is the emergency problems that we might 
encounter, and law enforcement, and fire and emergency 
services, ambulance services are important, as well as the 
hospitals, to see how they are all going to be handling this.
    So let's start off with Sheriff Cottey, our good friend.

STATEMENTS OF JACK L. COTTEY, SHERIFF, MARION COUNTY, IN; JOHN 
SPAHR, DEPUTY FIRE CHIEF, LAWRENCE TOWNSHIP FIRE DEPARTMENT; J. 
GREGORY GARRISON, CBS LEGAL ANALYST; AND KATE EKINS, MANAGER OF 
    PUBLIC AFFAIRS, ST. VINCENT HOSPITAL AND HEALTH SERVICES

    Mr. Cottey. Thank you, Mr. Chairman. It is a pleasure to be 
here, and I am going to echo with Councilman Curry's statement, 
that $1.5 million meant a lot to this community. Thank you for 
the assistance.
    I would like to make a few brief remarks. First of all, I 
am glad that Councilman Curry did precede me. As you can tell, 
he was given this awesome responsibility about 2 years ago to 
be more or less in charge of the city and county government to 
make sure that Y2K--that we were in compliance, and I think he 
did an excellent job. I commend him for that.
    Mr. Chairman, members of the committee, from a local law 
enforcement standpoint, Y2K translates into a short, basic list 
of the seemingly simple but critical questions for policymakers 
and those who are sworn to serve and protect. No. 1, when 
someone dials 911, will the call go through? No. 2, will the 
dispatchers be able to answer that 911 call? No. 3, will they, 
the dispatchers, be able to gather keystrokes and relay vital 
information on to the emergency patrol officers, sheriff 
deputies, EMTs and firefighters? No. 4, will those in the field 
receive that information by a radio and car computer which are 
MDTs and pager in order to respond? No. 5, will it be able to 
forward or query information from the scene? Will they be able 
to call for backup, signal that they are in need of help or, 
worse yet, that an officer is down? No. 6, when an arrest is 
made, will inmate processing with digital mug shots and 
automated fingerprint systems work? No. 7, will inmate medical 
reports, jail records and court records be available and 
accurate throughout all jurisdictions? No. 8, will it be able 
to interface with other local, State and national criminal 
justice agencies and data bases? What about record checks, 
outstanding warrants, protective orders, extradition 
information and so forth?
    If I say these may seem like simple questions, especially 
when compared to scholarly, intricate detail you have heard at 
this and other hearings, but I respect your appreciation for 
the critical nature, and I applaud your interests in seeing 
they are answered before the bell tolls and before the calendar 
changes, because at midnight on December 31st there will be 
these eight basic questions which will likely be answered not 
only first, but instantaneously, not only here, but in every 
hometown across America. Then moments later I predict attention 
will shift from Times Square to air travel, to banking, to 
utility delivering, to virtually everything else dependent upon 
computers.
    When I say this, I by no means take away from the 
significance of the FAA, the Department of Treasury, NASA, the 
Veterans Administration or Housing and Urban Development, all 
of which play vital roles in the lives of millions. But I do 
mean to say that computer failures on the local, State, and 
national level involving public safety will be felt swiftly and 
severely, and that, God forbid, the absence of law and order on 
our streets would be felt first.
    Now, the challenge is for me and every police executive 
across America to ensure that we can honestly answer yes to 
each of those eight basic questions, to see to it that those 
public safety computer failures do not occur, and that there is 
no absence of law and order on our streets. The good news is, 
from what I gather, from the National Sheriffs Association, 
International Association of Chiefs of Police, most of us law 
enforcement executives are trudging toward some early to 
midsummer test dates on our 911 systems to include telephone, 
radio, and computer-aided dispatching. And here locally we are 
presently on schedule for compliance at the Marion County lock-
up and jail for inmate process, jail records, medical records, 
automated fingerprints, and digitized mug shots.
    At the same time external concerns force us to be at the 
mercy of other public and private agencies: NCIC, the National 
Crime Information Center, a national data base of felonies and 
extradition information; No. 2, IDACS, Indiana Data and 
Communications System, a data base for local warrants and 
stolen property; also Bureau of Motor Vehicle driver's license 
and vehicle plate information; No. 3, JUSTIS, our local booking 
and courts records; and finally, utilities, a normal 
household's list like water, electricity, natural gas and so 
forth, which you have already addressed this morning.
    These external conditions are being closely monitored by a 
committee of my top administrators. This same group headed by 
Colonel Jerry Cooper, Colonel Scott Minier, and Deputy Chief 
Larry Logsdon is also tasked to coordinate with our year 2000 
Project Management Office for the city of Indianapolis, which, 
with the help of outside vendors and Y2K consulting engineers, 
has for many months been identifying and reviewing year 2000 
concerns in preparation for this summer's verification and 
testing.
    ``No man is an island'' will perhaps never ring truer in 
our lifetimes than at the stroke of midnight on New Year's Eve 
this year. As independent as we like to believe we are, as 
independent as our public and private agencies and all levels 
of government like to think we may be, the truth is we are all 
in this together. And that is why this sheriff and just 1 of 
the Nation's more than 17,000 local law enforcement agencies 
thank you for your time and your concern about how Y2K will 
impact local law enforcement and public safety. Thank you, Mr. 
Chairman.
    Mr. Burton. Thank you, Mr. Sheriff.
    [The prepared statement of Mr. Cottey follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.099
    
    [GRAPHIC] [TIFF OMITTED] T7495.100
    
    [GRAPHIC] [TIFF OMITTED] T7495.101
    
    Mr. Burton. Mr. Spahr.
    Mr. Spahr. Mr. Chairman, Congressman Horn, it goes without 
saying that probably the most critical concerns of any person 
is their own personal health and safety and the safety and 
health of their loved ones, and to that end, the fire service 
is dedicated to the extent of even giving our own lives to that 
protection of the public.
    It goes without saying also, therefore, that we would be 
violating our sworn oath to protect the public if we ignore the 
Y2K compliance issue. Indeed, computers also play a very large 
part in the operations of my fire department, the Lawrence 
Township Fire Department, 1 of about 12 or 13 in Marion County, 
but also one that is very typical.
    The department uses computers for record storage, reports, 
correspondence, budget considerations, computations, and 
summaries, emergency statistics reports, records management and 
a number of other uses. It was, therefore, alarming to be 
informed of the problem that we would face on January 1, 2000, 
when many if not all, of our computers would become inoperable.
    The department has since--my department has, since 1991, 
used Apple McIntosh computers, comprised of 12 desktops in our 
offices; more desktops in remote fire stations and several 
printers. The office and station computers are networked to 
permit in-house communication, as well as the transmission of 
run report information from the stations to headquarters, and 
these computers range in age anywhere from 1991 to 1998.
    Now, that system has been adequate and has served us well 
over the years, although it is beginning to require more and 
more maintenance and repair as time goes on. New technology, 
new program availability, coupled with the Y2K problem has, 
therefore, required us to consider replacing the system with 
PCs, and this may be the silver lining in the Y2K cloud, as 
Congressman McIntosh mentioned earlier. This has provided us 
with the impetus to explore and investigate new technology and, 
therefore, increase our capacity to serve.
    We have selected a company to replace that system. We did 
take three bids, and currently the current bid is approximately 
$77,000. Obviously, this is not an inexpensive thing, but is 
certainly a necessary one.
    Since submitting my initial report, I have received more 
information on compliance within Marion County within the fire 
departments, and I would ask that that addendum be included in 
my original report. The survey of the 12 or 13 departments in 
Marion County indicate that they are all pursuing to some 
degree steps toward the compliance. This can--this ranges in 
anything from modifications to their current systems to a total 
revamping of their systems.
    Now, my department itself will complete the installation of 
our new system sometime next month. We will be totally 
networked as we were before. Following that, we will then begin 
to survey the vendors that we have used in the past and the 
vendors that we have used at this time to gain written 
confirmation of their products and compliance. Obviously, if 
they come back saying it is not compliant, then needless to 
say, we will take appropriate action at that time. That project 
should be completed by August 1st, leaving us approximately 4 
months to handle any further problems that come up.
    Now, as I have stated, the fire departments in Marion 
County are aggressively pursuing this problem, ranging anywhere 
from no budgeted funds, that being funding simply coming out of 
operating up to 305,000, which is the highest funding that I 
have heard, but I think I can speak for them in confidence that 
with the efforts being put forth by these departments, we feel 
that if the citizen calls 911 on January 1, 2000, a dispatcher 
is going to answer the phone, and they are going to send the 
appropriate law enforcement, fire or emergency medical 
equipment. And that is a service that our citizens have come to 
expect, and they deserve it, and it is also the service that we 
swore to provide.
    In closing, though, I would like to express my appreciation 
to the committee for this opportunity to come before you, and I 
would like to commend each of you for the time and effort you 
have put on this issue. I think it is rewarding for the public 
to see that, indeed, the Congress is concerned about the well-
being, and willing to go to these steps to show it. Thank you.
    Mr. Burton. Thank you.
    [The prepared statement of Mr. Spahr follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.102
    
    [GRAPHIC] [TIFF OMITTED] T7495.103
    
    [GRAPHIC] [TIFF OMITTED] T7495.104
    
    [GRAPHIC] [TIFF OMITTED] T7495.105
    
    [GRAPHIC] [TIFF OMITTED] T7495.106
    
    Mr. Burton. Mr. Garrison. Greg, my good friend.
    Mr. Garrison. Good morning. I will go to these comments 
directly, but would say, by way of introduction, when your 
counsel takes apart the testimony heard in the first hour this 
morning, which I am confident they will do, they will discover 
two admissions which were only brought to light by--for a guy 
that is not a lawyer, that is a pretty good cross-examination 
by a Congressman.
    The first thing that you will learn if you examine the 
record is that the Indianapolis Water Co. misapprehends the 
architecture of the provision of sanitary sewage treatment and 
the way that is moved from the site of the residence to the 
site of the treatment, categorically. And this statement that 
was made was completely false--and I don't suggest that it was 
false intentionally, but I believe that he was mistaken--is 
that we are gravity-fed, when, in fact, we are not. From the 
point of the residence to the point of treatment, almost every 
subdivision in the northeastern quadrant of Marion County to 
the southern quadrant Hamilton County is forced main, driven by 
electricity. Eight hours without electrical power, and I would 
submit to you that that--that the capability of the 
Indianapolis Water Co. to sanitize and treat water will go 
something on the order of a quarter million homes whose sewage 
no longer can be pumped uphill, will simply be dumped into Fall 
Creek and into the White River.
    That is how it works. We know because we had property 
condemned for that purpose. We had property that is low, and it 
is at Mud Creek, and we know that if the treatment pump at 
106th and Cumberland Road quits and backs up, it dumps in, and 
that all goes into the water supply and then has to be treated. 
So, No. 1.
    No. 2, upon pretty skillful cross-examination this morning, 
you learned if we lose our power, it takes a week to get it 
back. The representative from IPALCO didn't want to say that, 
and he tried not to three times. So, a week is a long time in 
January.
    Mr. Chairman, let me begin by saying that I am honored to 
return to this seat, having testified before Congressman Horn 
at the last field hearing held in Indianapolis. Certainly the 
problems posed by this fascinating computer anomaly have not 
resolved themselves over the months which have elapsed since 
the last hearing. We face some difficult choices in the time 
that remains before the advent of the millennium.
    In addition to the date-sensitive difficulties proposed by 
the problem itself, we now find that we have the all too 
familiar conundrum caused by the impact of politics and 
disingenuous conduct in the public forum by those responsible 
for the public interest as well. It is that problem more than 
any specific area of preparation that I would like to address 
this morning.
    Probably the most glaring example of the pretext used to 
disguise the facts has come from the White House itself, where 
the entirety of this problem has been largely ignored until 
last summer. Since the administration has begun to address the 
area, we have seen repeated examples of conflicting reports, 
overstated accomplishments, and disinformation concerning not 
only the problems, but the purported efforts to correct them. 
For example, the success of the Social Security Administration 
has been extolled from the rooftops, the clear implication 
being that its recipients need have no fear of a timely 
delivery of their checks after January 1st. Of course, such 
nonsense ignores, even conceals the fact, that the Social 
Security Administration does not print the checks nor deliver 
them. The Treasury Department produces them, and its 
preparations are much less impressive.
    Another example comes directly from this committee where 
Chairman Horn reported, following his review of preparation by 
the Federal Aviation Administration under new leadership, that 
he foresaw more than adequate progress at that crucial 
department in the executive branch. Some weeks later, after 
having the opportunity to verify many of the claims of the FAA 
independently, I believe he has discovered that they were much 
less prepared than they said.
    Public utility companies have followed the administration's 
lead very well, resorting to generalities of what amounts to 
deception at every turn; plain and direct answers have been 
supplanted in the public discourse by complicated recitations 
about all the committees empanelled, the commissions 
approached, the studies undertaken, and the progress made.
    What has been missing from the rhetoric has been the 
exposition of fact. Reports from various utilities or their 
organizations have been long on studies and short on results, 
long on predictions of success and short on fact. They have, 
even in the surveys and reports that they have generated, 
failed to report with specificity the degree with which they 
fixed the problem.
    Careful examination of such reports discloses that even the 
number of utilities which have been examined has been small. 
Further, these commissions and committees have relied on the 
individual utilities for reporting instead of insisting on 
independent audit and examination of the relevant systems. In 
most cases, testing has not yet been accomplished, with much of 
that not scheduled until this summer. Predictions of readiness 
use target dates dangerously close to the end of year, and 
nobody has proposed a plan for what they will do if the system 
fails the test.
    Recently, we have had the opportunity to look at the 
transportation industry with regard to those problems. One 
expert told us that the biggest problem with trying to assess 
preparations in this area is the vast number of small carriers 
that make up the whole. Most of America's goods are delivered 
by truck, and most of the trucking is done by small or medium-
sized businesses. Thousands of these businesses, continued 
proof of the viability of the capitalist economy and ideal, 
move billions of dollars worth of goods every year. However, 
because there are thousands of these businesses, determining 
how old their computers are, what date-sensitive programs they 
contain, and what has been done to prepare for Y2K is most 
problematic. Similarly, communication firms, of which there are 
many, all play an important part in the vast and complex 
interdependent system, which presently transmits not only voice 
communications, but also data in quantities too huge to 
estimate.
    Mr. Chairman, my point is simple. Enormous, even heroic 
efforts have been commenced all over the American landscape, 
both public and private, to address and correct this computer 
mess. Much has been accomplished in a short time, evidence once 
again of the power of a free people to address challenges and 
find solutions. However, it is late enough in the game that 
exclusive focus on the fix is no longer responsible--no longer 
a proper discharge of trust and stewardship owed to the people 
by government, as well as private enterprise.
    It has become fashionable over the last 25 years to filter 
information and to shade the facts. ``Don't ask, don't tell'' 
has spread like some kind of virus throughout government and 
industry alike, a legacy much more likely to survive the 
merciful end of this administration than even the manifest 
disgrace so painfully obvious in other areas.
    No one can divine the motivations of this administration or 
the many industries in the private sector for refusing to 
encourage preparation for the possibility of such 
interruptions. We are a great and resourceful people, Mr. 
Chairman. We have demonstrated with steadfast consistency over 
the entire history of this Republic we can and will address 
adversity whenever we must. We must be told. Our people are not 
bereft of their greatness only because of their present 
prosperity, not rendered incompetent to care for themselves 
only because they are led by persons who seek to encourage a 
society of a governmental dependence. We must be told in clear 
terms just what the problems are and how long they may last. 
There is nothing alarmist about encouraging communities to do 
some planning to help families to recognize that brief 
interruptions in their life-styles may occur. We have now 
arrived at a new scheme: ``Ask if you want, we will not tell.''
    I encourage the Congress to address the issues of 
preparation. The fact that people may be complacent is a 
temporary state. They continue to live in the present because 
they are led to believe that it will continue without 
interruption. When they are told otherwise, they will react, 
pull together, make reasonable preparations and succeed as they 
always have. The time has come to tell the people that they may 
experience some temporary electrical failure called ``rolling 
brownouts,'' as the experts call them. They may face temporary 
stoppage in the flow of goods and services, or even some break 
in communication, if only for a few days. It is not 
unreasonable for the diabetic to stock up on insulin or the 
heart patient to buy some extra nitroglycerin. Such preparation 
is not alarmist, it is simply smart living. And so far, this 
administration has again indulged itself and the people in 
another fiction, one dealing with some problems that may be 
unavoidable, and certainly suggest the need for advance 
preparation.
    In response to the mantra of Mr. Clinton's information 
managers, I would suggest that we say to them, ``It's not the 
economy; it's the truth, stupid.'' The truth is a commodity 
that has been in short supply there these past years. 
Certainly, there is no better place than in the Congress of the 
United States for the truth to be spoken. Address the subject 
of responsible preparation. Tell the people. Do not try to take 
care of them, just tell them the unvarnished truth, and they 
will take care of themselves. Thank you.
    Mr. Burton. Well, I will definitely have some questions for 
Mr. Garrison. You are very interesting and controversial, as 
always.
    [The prepared statement of Mr. Garrison follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.107
    
    [GRAPHIC] [TIFF OMITTED] T7495.108
    
    [GRAPHIC] [TIFF OMITTED] T7495.109
    
    [GRAPHIC] [TIFF OMITTED] T7495.110
    
    [GRAPHIC] [TIFF OMITTED] T7495.111
    
    Mr. Burton. Ms. Ekins, a tough act to follow.
    Ms. Ekins. Mr. Chairman and members of the committee, I 
appreciate the opportunity to speak before you this morning. My 
name is Kate Ekins, and I am the manager of public affairs at 
St. Vincent Hospitals and Health Systems. At St. Vincent, we 
have over 1,000 beds across Indiana, and we employ over 6,000 
individuals.
    The issue you have chosen to address is very important to 
the medical community. At St. Vincent, we feel we have made 
great progress in our preparations for January 1, 2000, and 
plan to be complete with all of our preparations by September 
of this year. Our preparations began in 1996. Focus throughout 
the last 3 years has been on patient care. As a health care 
provider, we are strong advocates for our patients.
    As part of our Y2K readiness, we looked at several areas of 
our delivery system. These included medical devices, supplies, 
our internal computer systems, central services, such as power 
and water and staffing. Just to go through a few of those, what 
we looked at with medical devices was ensuring that all the 
devices were going to be functioning properly. We obviously 
purchase those--this equipment from other vendors, and so we 
need to test them to make sure that they are compatible with 
our systems internally.
    Our supplies, we are looking at having adequate number of 
supplies, such as pharmaceuticals and bandages and oxygen. We 
anticipate that all hospitals throughout the country, and other 
providers, will be doing this, so we have already begun our 
effort in controlling our purchasing so that by January we have 
about a month's supply in case of some sort of unforeseen 
occurrence.
    Our internal computer systems, we are presently about 75 
percent computer-driven in terms of other doctors' orders, and 
everything that is done is done via computer network as opposed 
to paper-driven. And so we are working with them. We updated 
our contingency plans that exist for those already, so we are 
prepared with a paper-driven plan for this model should these 
systems fail.
    Staffing we are looking at right now in terms of 
maintaining a high level of care throughout the transition, and 
we are planning to make sure that the appropriate staff will be 
available throughout the hospital.
    And then the central services for us, power and water, any 
type of utilities, are similar to what you heard earlier today, 
and we will be relying on the different utility companies to 
perform what they have performed in the past. But we do have 
contingency plans in case of a disaster. We have generators, 
and we have backup supplies in other areas in terms of them. We 
are also developing contingency plans to house people from 
nursing homes or other facilities should our hospital be the 
one site with power and water. We have also developed a plan 
for us to evacuate our patients should that be necessary.
    And the secondary concern we have with Y2K is one of cash-
flow. Our equipment for processing bills and claims has been 
checked, and it is ready; however, we are unsure of where our 
payers stand in this preparation. So, we have a contingency 
plan developed should we encounter problems in the area of 
reimbursement.
    The final effort we are making internally is educating our 
employees on how they can be prepared in their personal lives 
and their families for Y2K. We are confident that our employees 
will be more willing to come in to help at the hospital if they 
feel comfortable that their families are safe while they are 
away.
    The bottom line for hospitals across the State and across 
the country is that we are always prepared for disasters; we 
are always anticipating something such as tornado or an ice 
storm, or even bomb explosions. And people who work for 
hospitals are always prepared for these type of emergencies. No 
one is entirely sure about what complications will arise with 
Y2K, so our commitment to be prepared to the transition is 
unwavering, and the people we serve deserve nothing less. Thank 
you for this opportunity.
    Mr. Burton. Thank you, Ms. Ekins.
    [The prepared statement of Ms. Ekins follows:]

    [GRAPHIC] [TIFF OMITTED] T7495.112
    
    [GRAPHIC] [TIFF OMITTED] T7495.113
    
    Mr. Burton. Do you want to start the questions?
    Mr. Horn. Whatever you wish, Mr. Chairman.
    Emergency response agency. Let me pose one to you, Sheriff, 
in particular. Most of the 911 emergency dispatch centers, 
known as public safety answering points, I guess, in the 
jargon, are highly automated, and they are particularly in the 
case of the enhanced 911 systems. Have the local 911 systems 
been thoroughly tested, and what do the tests show?
    Mr. Cottey. As Councilman Curry stated earlier, 
Congressman, that will be done this summer, and we feel very 
confident that things are in place. Councilman Curry and my 
committee, as well as the chief of police and his people, meet 
about every 30 days. We have been doing this for over 2 years. 
We feel very comfortable, and we feel when the test takes place 
around July, early August, things will be where they need to 
be.
    Mr. Horn. Are you planning to give extra training to people 
that answer the calls?
    Mr. Cottey. Yes, we are.
    Mr. Horn. Because I am sure there will be quite a different 
situation.
    Mr. Cottey. We have about 154 employees at the 
communications center.
    Mr. Horn. Do you really? And that just covers Marion 
County?
    Mr. Cottey. All of Marion.
    Mr. Horn. All Marion.
    What do those counties surrounding Marion do?
    Mr. Cottey. Well, they have a 911 system also, but it is 
just like anything--it is not as large as ours because of the 
area here. But that is an area that the State police at this 
time through the legislature which is meeting is trying to 
correct that to make that more of a statewide to help the 
smaller communities. That went on to the statehouse right now.
    Mr. Horn. Yeah, I agree with that. I think the real problem 
in America is the small communities that simply don't have 
staff.
    Mr. Cottey. And, Congressman, if this goes through the 
legislature this time, the State police superintendent has 
advised me that they are ready to put that in place.
    Mr. Horn. According to the Bureau of Justice Statistics, 
there are over 17,000 police and sheriff departments in the 
United States. And has the Marion County Sheriff's Department 
coordinated its year 2000 efforts with other local law 
enforcement agencies? You are saying it is really the State 
police's responsibility?
    Mr. Cottey. Right here in Indiana they are doing most of 
that.
    Mr. Horn. And what types of problems, besides the fact that 
you haven't tested for them, do you expect to have? Or did you 
deal with the test?
    Mr. Cottey. Well, talking to Mr. Curry, him and I do stay 
right in bit of contact. He is a guy I greatly respect. I am 
not a computer expert, believe me, and I feel he is, and he 
just feels the things that have been going on with vendors, and 
the things that are in place, that he feels that when we test 
it, it will be a positive science when we test it.
    Mr. Horn. When you say ``going on with vendors;'' what do 
you mean?
    Mr. Cottey. Well, Mr. Curry, the city/county, as he stated 
earlier, we spent about $12 million for all city and county 
government, including public safety. And he has been meeting 
with them and bringing outside vendors to bring up--bringing 
equipment in, to ensure when we are ready to test, that those 
things will work properly. And, you know, just like--I don't 
think none of us can sit here and say for sure that we ought 
not have any problem, but I was just making a few notes on some 
of the things we have been through in the last 4 years, such as 
a major snowstorm where nobody can move around for about 2 
weeks; a tornado last June that hit the entire east side of 
Marion County, the south side of Marion County at the same 
time; disturbances that went on two or three different areas in 
this community; the bomb scares; hostage situation; and we have 
always been there, and I am confident that we will be there 
after the testing in July.
    Mr. Horn. Now, FEMA, the Federal Emergency Management 
Agency, is taking quite an interest in this. Has there been any 
direct relationship between the regional office of FEMA and 
your office?
    Mr. Cottey. Well, here again, the local emergency 
management and people who I have assigned, along with Mr. 
Curry, meet with them periodically on this.
    Mr. Horn. And that is the State/county part of FEMA?
    Mr. Cottey. Right, right.
    Mr. Horn. So, you are pleased with the support granted by 
those agencies then?
    Mr. Cottey. I have not heard any negatives yet. I think 
Congressman Burton will tell you when I hear negatives, I am 
usually not bashful.
    Mr. Horn. You are not shy?
    Mr. Cottey. No.
    Mr. Horn. And, Mr. Spahr, in terms of the fire trucks and 
ladder equipment, have they been checked for 2000 compliance?
    Mr. Spahr. Ours have not. This is something we are going to 
have to be contending with. We are fortunate in that a majority 
of our fire apparatus is one company. So, consequently we are 
going to be approaching, first of all, the person who sold it 
to us, and second, it appears, the manufacturer who produced 
this equipment, along those lines.
    I will be frank with you. We have little idea of how the 
tests are done--not a lot of information has been disseminated 
among the fire service.
    Mr. Horn. Now, is that true nationally or just State or 
what?
    Mr. Spahr. I think it varies. I think probably one of the 
biggest issues is knowing where to go to get that information.
    Mr. Horn. I will give you an example, and then I was going 
to ask Mrs. Ekins--we could combine these two.
    After I held a hearing in Indianapolis last year, I went to 
Cleveland, and in Cleveland we had the Cleveland Clinic 
testify. That is one of the world's--Nation's major medical 
centers. They had created a Web site where, if you checked, 
say, emergency room equipment, you looked up the manufacturer's 
number, the manufacturer, where you track that down, so not 
everybody has to reinvent the wheel 17,000 times, in the case 
of sheriffs and police officials, and they would put it on 
there, and everybody could check it.
    Now, I was going to ask Ms. Ekins if they were doing this 
here in Indiana, or did they feed into the WWW, World Wide Web, 
that has been set up to deal with emergency room equipment of 
which there are hundreds of different manufacturers, all the 
rest of it, including the sort of paramedic vans that often are 
under your fire department control, and checking them out on 
the equipment used between the time you pick up the patient and 
end at the hospital.
    Ms. Ekins. We have done a little of both, as far as using 
that as a first source of information and then double-checking 
on our own.
    Mr. Horn. Now, did you find you had pieces of equipment 
that they didn't have on that Web?
    Ms. Ekins. Uh-huh.
    Mr. Horn. Yeah, well, I just would hope that, frankly, the 
International Association of Fire Chiefs would be able to 
establish that Web.
    Mr. Spahr. This is something, to be honest with you, 
Congressman, they may have. We just have not investigated it as 
yet.
    Mr. Horn. I was wondering, if you pay dues to this crowd, 
if they give you services.
    Mr. Spahr. And indeed, as I said, they may very well have 
that.
    Mr. Horn. Because there are 32,000 fire departments, I am 
told by staff, and, in your judgment, you haven't had a chance 
to look at the equipment yet?
    Mr. Spahr. Exactly.
    Mr. Horn. And what is your contingency plan, if something 
goes awry?
    Mr. Spahr. Well, basically, again, this is something we are 
not to the point yet of even finalizing. We have concentrated 
the first quarter of this year simply on this computer system. 
This has been enough of a challenge for this first quarter.
    The next phase that will be is to begin contacting vendors 
to see if they feel that they are compliant. Following that, 
again, as you said, we need to investigate these things, and 
the apparatus and the equipment, the bay doors, the HVAC 
system, things of that nature, And in that respect, we are 
probably a little behind. However, we feel that, fortunately, 
the majority of our vendors are local. It is not like we have 
to fly people in from Washington State or something.
    So this has not been--has not been adequately or completely 
addressed as yet, but I feel it will certainly be by the end of 
the second quarter or third quarter.
    Mr. Horn. When I was in New Orleans last August on a 
hearing, we had the chief executives of Baton Rouge before us. 
Baton Rouge had checked their ladder and their pumper. One was 
2000-compliant, one wasn't. And you had a case, if there is a 
fire on the fifth floor, why, you got a water supply, but you 
can't get it up there to get people into safety. So at that 
point the New Orleans chief executive said, gee, I hadn't even 
thought of checking the fire department. But, you know, we are 
now almost a year--or a half year.
    Mr. Spahr. There is an organization here in Marion County, 
Marion County Fire Chief's Association, and I think that this 
will be the proof that will bind all this together. Again, as I 
have said, we have got 12 or 13 different fire departments, and 
one purpose of this association is to meet and share 
information.
    Mr. Horn. Share.
    Mr. Spahr. Share, and consolidate those things.
    Mr. Horn. We passed a Good Samaritan bill in the Congress, 
and it is law, so in case of private industry, certainly they 
can have an antitrust judgment thrown out when they are sharing 
information. In our hearings last year, we found that some of 
the most competitive firms between each other were now working 
together, and that is as it should be.
    I have one question for you, Ms. Ekins, as to what are the 
contingency plans that St. Vincent's Hospital and Health 
Services has in mind if it all doesn't quite work out. Are you 
getting generators?
    Ms. Ekins. We have backup generators. That is what I was 
just saying in my remarks. We have backup generators. When 
there is an ice storm--they had a winter up in northwestern 
Indiana that shut down the northwest quadrant. Hospitals were 
basically one of the few places that had power. So we have--we 
have almost standard contingency plans for just about 
everything that could happen.
    Mr. Horn. What is the length of time your generators can 
give you power in the hospital?
    Ms. Ekins. That I don't know.
    Mr. Horn. Two weeks, 1 week?
    Ms. Ekins. I think so.
    Mr. Horn. Two months?
    Ms. Ekins. We are developing everything to a 1-month for 
the month of January so that we would be able to get through 
any sort of program.
    Mr. Horn. So when I say to people it would be prudent--not 
being a panic scarist, but it would be just prudent if people 
had, say, several weeks of food, maybe a month. When I tell 
that to my Mormon friends, they smile and they say, we have 
been doing that for years. They are the only group I know in 
America that has planned ahead for that for a year. So, anyhow, 
that might the prudent at the hospitals to do.
    What are the greatest risks to you so far that you have in 
terms of that sort that surprised you?
    Ms. Ekins. Well, the greatest risk would be if we have to 
move our patients out of the hospital, just because of the size 
of our hospital. It is probably the second largest, you know. 
Just--there are not a whole lot of other facilities nearby to 
take people, and if we are in trouble, then it is likely to 
assume that the other hospitals in town would be in that same 
situation.
    Mr. Horn. How many beds do you have at St. Vincent's?
    Ms. Ekins. At our 86th Street facility, we have 465. Then 
we have a hospital--we have four other hospitals around the 
State that are smaller. In some we have 40-bed neonatal 
intensive care units, which those children would be probably 
the most critical of anyone to move.
    Mr. Horn. These are the preemies.
    That is all I have, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Horn.
    The fire departments and the sheriffs departments and the 
other law enforcement agencies, what kind of a coordinating 
mechanism have you arranged? For instance, I mean, if we had a 
major electrical breakdown; for instance, you might have a real 
jump in crime or some kind of emergencies. If the stoplights 
went out, and there was a multicar accident, or criminals were 
taking advantage of an electrical outage, what kind of 
coordination and communications abilities do you have between 
various fire departments and police departments and law 
enforcement agencies across county lines?
    Mr. Cottey. Mr. Chairman, we can all talk, believe it or 
not, together. It isn't like it used to be 10 years ago, just 
like the Indianapolis department and Marion County Sheriff 
Department were on different frequency in the radio systems. 
The way the setup has been for the last 10 years, we can all 
communicate by going to different channels with each other. 
Like I say, we have used backup several times through storms. 
We have had to startup our alternative source. It has always 
worked. We can just communicate with each other right now.
    Mr. Burton. Do you have--and I would like for Mr. Spahr to 
answer these questions, too--do you have any kind of a 
contingency plan worked out where you would coordinate or work 
with, say, the sheriff's department in Hamilton County or 
Johnson County to help them with an emergency situation?
    Mr. Spahr. In our particular district, we are in the 
northeastern portion of Marion County, so we work very closely 
with Hamilton County always. We have communications capability 
with them. So, we are--in that respect we are in very good 
shape. And, again, we have a very good familiarity with them.
    Mr. Burton. What I am trying to get at, has there been any 
contingency plan made? Let's say that there was a major 
catastrophe in Johnson County or Hamilton County or Hancock or 
Hendricks, or whatever happens to be around Indianapolis, and 
they didn't have the capability to deal with that. Have there 
been any coordinated efforts between our law enforcement agency 
in Indianapolis and our fire agencies to deal with that kind of 
problem?
    Mr. Spahr. There stands an agreement, and it has always 
stood. It is a mutual aid agreement. Essentially we will 
respond to any call for help, be it to another department, to 
another county, whatever. Obviously, we will not--we still have 
our own obligations at home. We will not strip our department, 
but we will certainly respond to any department, much the same 
as Marion County would respond to IPD's call for help, or even 
out of county if necessary. So, that is actually nothing new. 
We have been practicing that for years.
    Mr. Burton. But you will be prepared to do it.
    Mr. Spahr. Exactly yes.
    Mr. Cottey. Mr. Chairman, we continually do. Calls may come 
from Hancock County. We have been as far away as Columbus, IN, 
Bartholomew County, on bomb scares, or things like that, or 
disturbances. That is just an everyday thing, just there was an 
agreement.
    Mr. Burton. I wasn't aware. I didn't know you could go out 
of the county.
    Sewage, you know, that is a big concern. You seem very 
concerned about that in various parts of the city, because the 
indication was, Greg, that we were, if not misled, didn't get 
the whole story from the water company and the utilities about 
how they would deal with because they are not gravity-fed in 
its entirety.
    What I would like to know is it would be a tragedy if we 
had an electrical breakdown, because of the grid system or for 
whatever reason, for a week. And if the sewage that doesn't 
flow uphill started going back the other way into everybody's 
house, I mean, it could cause a real health problem. Can you 
elaborate on what you were saying?
    Mr. Garrison. Here is--this turns out to be the biggest 
``if'' in all of our joint lives. And the problem that I see 
with the public discourse over the year, whether it is--
although I am quick to say that I think the finance--the money 
and banking area and communications are probably a quantum leap 
ahead of everybody else. I think that is obvious from the kind 
of answers you got this morning. These guys at this end of the 
table were much more specific about what they can do, what they 
tested and where they were than these guys down here.
    The interdependency problems are things that are 
terrifying. Look for a moment at they lost power in 
southeastern California because up in Idaho someplace, I think 
it was, a branch fell----
    Mr. Horn. San Francisco they lost power.
    Mr. Garrison. Huge problem. One little mistake. You have 
those kind of----
    Mr. Horn. New York, you will recall, also.
    There is one thing we can say out of these blackouts are 
that 9 months later there is an increase in population.
    Mr. Garrison. I am hoping that is true again, now that 
there is a correction of it. When you have one of those, you 
have the makings for a bunch of good one-liners on the Johnny 
Carson/Jay Leno. When you have got 50 of them or 100 of them, 
then you have a problem of overwhelming a system.
    Assume for a moment that, not our worst fears, but a 
significant problem takes place. Well, we have what the experts 
call the rolling brownout, moves around in the circle, which is 
fed by an IPALCO-provided center plus Public Service Indiana. 
When they fail, this domino begins to tumble down, and it is 
indiscriminate. The hospitals are suddenly on generator power. 
If they have got 3 days or 5 days of generator fuel, they are 
still running. Are they running their CAT scan? I doubt it, 
because the thing draws too much power. Are they able to run 
the surgical suites? That is another question. It is not full 
service, and I think they will be quick to tell you, we don't 
just run forever on that much diesel fuel. That generator 
probably uses 8 to 10 gallons per hour, just one of them.
    Look with me at the water problem just for a moment, and 
this is one that nobody has really wanted to talk about very 
much. When the electricity goes out in northern Marion County, 
southeastern Hamilton County, because that's where Dan lives, 
where I live, where we know what that looks like, at that 
moment, in addition to all these obvious problems about 
stoplights and telephone service and whatever else, the 
electric generator or the electric pumps that sit in places 
underground 6 or 8 feet, 10, 12 feet deep, at places like 106th 
and Cumberland Road, north of my house and all around you, that 
pump uphill, it runs gravity, I believe, to those lift 
stations, where it has got to be pumped the rest of the way. Or 
it is the other way around, I forget which. But I know none of 
them are gravity-fed. That is why Mr. Beering, I believe his 
facts are incorrect. Virtually every platted subdivision in the 
metropolitan area has forced--main service at someplace. 
Wherever this stuff has got to start going uphill, you got a 
problem.
    What I understand to be the situation from when we 
represented some people who were having land condemned, when 
they were building these things, the bad news is that that 
station quits working, out into the water it goes. A little 
place behind my cousin's house called Mud Creek, and it is 
about the width of that table, but it draws a lot of water per 
year.
    Mr. Burton. Let me interrupt for just a second. I am 
concerned about the effluent going into the waterways and 
ultimately into the reservoirs, which would have to be dealt 
with, but I am also concerned about the backup of sewage into 
residentials.
    Mr. Garrison. It goes both ways, Congressman. That is our 
problem. What happens is it goes downstream and gets down to 
try to protect those homes. It goes into the water supply, and 
it very quickly overwhelms the Indianapolis Water Co.'s ability 
to purify it. So there is the problem No. 1.
    Other problem is if it is forced main, if it is drawing 
through and there is no gravity from the houses down, and it 
backs up, and then pretty soon you got every residence in that 
area that is incapable of sustaining human life. Looking at 12 
to 24 hours before cholera breaks out.
    Sounds, oh, my golly, what kind of alarmist have we here? 
Just basic biology, basic physics. The question is: What 
happens? Where does it go? It is gravity to the pump, and it is 
forced from there to the point where it is treated. I believe 
that is the way the thing works. So your immediate problem is 
not making the houses uninhabitable, your immediate problem is 
what happens to the water supply. But over time, if our friend 
the electric company is right and it takes 7 days to get the 
juice running again, you may have both problems.
    My question next is if that takes place, and sewage is not 
a problem upstream, going down, what about this water system 
that has been overwhelmed? Does it run out? Do they turn it 
off? Does it start pumping impure water? It takes very little 
time before our friends in the hospital business have got a 
real problem when people start getting dirty water.
    That is the kind of complex view of things that I don't 
hear.
    Now, they sit around, and they make a lot of pretty 
pictures. But I want to know, did you plan that, Mr. Water 
Company Man? Mr. Power Guy? Did you talk your way through a 5-
day power failure and its impact; not whether your lights work. 
I could care less. Now, whether my sewage plant works; it, by 
the way, runs on electricity, too, as does my pump--they push 
water with electricity. So all those things work together to 
make us uncomfortable when we hear platitude-laden 
presentations like you heard today. I was disappointed myself. 
Three times you asked him before the guy finally had to 'fess 
up, A, something around a week; B, I am not sure I even know.
    Mr. Horn. Why don't we have the respective utilities see 
the testimony and add what they would like to with the 
testimony.
    Mr. Burton. I think the respective utilities have left.
    Mr. Horn. No, but, I mean, we will send them the questions 
and let them file it at this point.
    Mr. Burton. What I would like to do, I think it is a good 
idea. Greg, why don't we have you give us a list of the 
concerns that you had and maybe others might have had from 
listening to their testimony, and then we will send those 
questions to them and ask for some kind of response.
    Mr. Garrison. I think if you are going to--before you are 
finished with this huge undertaking, Congressman, really know 
with some specificity what the facts are, you got to stop 
talking to lobbyists and the boys at corporate offices. I would 
be a lot happier with a bunch of guys with pocket protectors 
sitting here that were running that machinery, because I don't 
get the same thing I get from them as I get from politicians 
and from the lobbyists.
    We had a lobbyist here this morning. I forget which one. 
Legislative service guy is a lobbyist. What does he know about 
electrical power? I mean, it is a real big--one of the things 
we found in our interviews on my show----
    Mr. Burton. He has been working on this for some time.
    Mr. Garrison. We have stayed away from what you called the 
blackout crowd. We are sticking in the middle of the fairway, 
with the Edward Yardeni of the world and with people like 
Richard Lugar to talk to. We are not getting out there into 
wacko land at all. The people that we have talked to, very 
concerned, intelligent people. When they talk to the wrench-
twisters of the world, the guys that fix things when they go 
wrong, they get a real different picture.
    For example, the NERC, Northeastern Electrical Reliability 
Council, that is interesting reading. Brian Vargus was here. I 
asked him, what would you think of a statistical sample that 
was less than a substantial fraction of the reported public? 
Well, they didn't talk to everybody. NERC is basing its 
grandiose predictions that things are going to be fine on the 
basis of a bunch of independent reports, not verified. And 
there is a whole bunch of the little mom-and-pop REMCs that 
didn't respond at all. Now, I ask you, what happens when half a 
dozen of those REMCs go black? Ask your friends in the grid 
about that. Don't ask some lobbyist about it. Ask one of those 
engineers that runs those things, and you will get a real 
different answer.
    One of the things that happens is they shut them off. Those 
people go into darkness. You can do that. I mean, that is 
electromagnetic. As I understand it, that switching is 
noncomputerized. What shuts off electrical power is 
electromagnetic, greater than 360 cycles per second or 
something, and that fast, those people that have a problem are 
shut down. But if there is a number of them, your problem is 
just as great as it ever was even if IPALCO is still running. 
So, I will be happy to ask those questions.
    Mr. Burton. I asked the question last night of the 
gentleman from IPALCO because I seem to be more concerned about 
electrical, electricity, because it powers so many other 
things. And I asked him about the generator, which I asked 
about today, and his indication was he didn't think that was 
necessary and warned against people improperly installing them. 
From your research, and I know you have worked on this on the 
radio for a long time, that is why I wanted to have you on one 
of these panels, would you think it would be prudent to have a 
generator?
    Mr. Garrison. He is wrong, and he is wrong for all the 
wrong reasons. He is worried about what they call backfeed, 
which is when the power comes back on with the generator 
running. But instead of taking that bull by the horns and 
saying, boys and girls, we may have a problem for a while, if 
you are going to buy one, don't buy some little $1,500 Honda 
guy that has got 1,000 that has got 10 kw on it, get one with 
10,000 watts.
    It is unfortunate what is happening. There is no 
dissemination of important information. Gasoline is a very poor 
fuel supply because it goes stale very quickly, and it is not 
near as--it is volatile, as we know all know from TV, and it is 
not efficient. It burns faster. Diesel generator is much 
better. Anybody that buys a 250-watt, a 1,000-watt, 1,500-watt, 
2,000-watt generator is just wasting your money. You can't 
drive your refrigerator with that for very long. And the most 
important thing is you can't drive anything that generates heat 
with that small of a power supply. It takes about 6,000 watts, 
or 6 kw, to be able to drive one resistance heat thing, like 
your range to cook your food on or your hot water heater.
    So, we don't have any information. We got people out there 
going to Tractor Supply and buying a 1,000-watt generator and 
thinking they are going to do themselves a favor. It is 
gasoline-powered. They run out of gas in 12 hours. Now where 
are they? Diesel is much better.
    He is right about one thing. It has got to be installed by 
the pros. They come with all kind of toys on them. You can buy 
one that fires itself up every 7 days to test itself. To me 
that is just more things to go wrong. The switch is $2,000. We 
didn't know that, except we did a little research and found 
out; $2,000 for the switch, if you buy the fancy one. But then 
you can buy the one for $600, you throw on one, turn off the 
other one, it works just fine. Those are pieces of information 
nobody has got.
    The same guy that is worried about backfeed, doesn't think 
a generator is a good idea, thinks it will take him a week to 
get us back. I tell you what, you remember last January? It is 
cold here. A week with no power, there will be a lot of 
suffering.
    Mr. Burton. Any other questions?
    Mr. Horn. Just one to the law enforcement and fire 
authorities. You have a State police. Do the universities have 
separate police departments, their own university police?
    Mr. Cottey. Yes, they do.
    Mr. Horn. What other groups beyond the normal geographic 
area of the city or township or county; how many other police 
departments are there?
    Mr. Cottey. Outside Marion County, Congressman?
    Mr. Horn. Just statewide.
    Mr. Cottey. So many that you have towns, small towns with 
maybe a town marshal; you have other towns with maybe a town 
marshal, and three deputy marshals.
    Mr. Horn. Well, you have probably got 1,000 different law 
enforcement groups in Indiana.
    Mr. Cottey. Right, right.
    Mr. Horn. Now, you mentioned that you had good 
communication. I found in Los Angeles, which is L.A. County, 
has 10 million people; the city of Los Angeles, 3 million; Long 
Beach is second with maybe a half a million. And the university 
police we all have, which there are a number of State 
universities there, this is now 10-year old data, but the fact 
was they just couldn't communicate with each other because all 
of the frequencies were on the east coast. Now some of those 
have been moved. And I just wondered, can the whole police law 
enforcement group within Indiana really reach each other when 
the chips are down?
    Mr. Cottey. One of the key things, like I stated, is what 
the superintendent of the State police is trying to get passed 
now. That will be a big step forward. But usually what happens, 
there are 92 counties in the State of Indiana, 92 sheriffs, and 
most of the smaller agencies work through that local sheriff 
and that county is the way it usually works.
    Mr. Horn. So, can the 92 sheriffs now communicate on one 
frequency?
    Mr. Cottey. No.
    Mr. Horn. You can't?
    Mr. Cottey. No.
    Mr. Horn. Are we kidding ourselves that we will have 
interoperability between jurisdictions? I mean, you are correct 
when you say fire departments have had this for years, where 
you share if somebody has a crisis?
    Mr. Cottey. I can say that Marion County and surrounding 
counties, which is a lot of population in the State, we can 
communicate. With the other areas, if the State police gets 
this passed, that will take care of the rest of the small 
departments throughout the State.
    Mr. Burton. Well, let me end up by saying thank you very 
much. You have allayed some fears and created a whole lot more. 
Appreciate that, Greg. I am going to have to get together with 
you and do some serious talking. And I would like to have the 
concerns that you have expressed in writing. I know it is a lot 
of work, but I would like to have that because I will submit 
those to the relevant utilities and get that information back 
to myself and the committee.
    Mr. Garrison. Congressman, we are a clearinghouse. What we 
could do is give you the authorities themselves. There are four 
or five people who you can talk to, that your staff can 
interview directly, that will be happy to pick the phone up and 
answer your questions right now. You will know many of the 
names. I mean, there are many.
    Mr. Burton. Any of that information we would like to have.
    [Note.--The information referred to was not available at 
the time of print.]
    Mr. Burton. I don't have anything else to say, but I want 
to thank Bill O'Neill on our professional staff for what he has 
done; Lisa Arafune, the clerk; Matt Ryan; Mike Yang, minority 
counsel, thank you; Mike Delph on my staff; Tim Davis and Jim 
Atterholt, all on my staff; and Marilyn Jones, our court 
reporter, thank you very much. Thank you very much for being 
here. We stand adjourned.
    [Whereupon, at 11:56 a.m., the committee was adjourned.]


</pre></body></html>
